<html>
<title> - [H.A.S.C. No. 113-81] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                         [H.A.S.C. No. 113-81]


                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                    THE POSTURE OF THE U.S. SPECIAL

                         OPERATIONS COMMAND AND

                      U.S. TRANSPORTATION COMMAND

                               __________

                              HEARING HELD

                           FEBRUARY 27, 2014

                                     
[GRAPHIC] [TIFF OMITTED] 

                                     
                      COMMITTEE ON ARMED SERVICES




                  U.S. GOVERNMENT PRINTING OFFICE
86-971                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                Peter Villano, Professional Staff Member
                Michael Casey, Professional Staff Member
                          Julie Herbert, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Thursday, February 27, 2014, The Posture of the U.S. Special 
  Operations Command and U.S. Transportation Command.............     1

Appendix:

Thursday, February 27, 2014......................................    43
                              ----------                              

                      THURSDAY, FEBRUARY 27, 2014
      THE POSTURE OF THE U.S. SPECIAL OPERATIONS COMMAND AND U.S. 
                         TRANSPORTATION COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Fraser, Gen William M., III, USAF, Commander, U.S. Transportation 
  Command........................................................     5
McRaven, ADM William H., USN, Commander, U.S. Special Operations 
  Command........................................................     4

                                APPENDIX

Prepared Statements:

    Fraser, Gen William M., III..................................    61
    McRaven, ADM William H.......................................    47

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................    97
    Mr. Garamendi................................................    92
    Ms. Hanabusa.................................................    92
    Mr. Hunter...................................................    93
    Mr. Langevin.................................................    91
    Mr. Maffei...................................................    93
    Mr. Peters...................................................    95
    Mr. Runyan...................................................    94
      THE POSTURE OF THE U.S. SPECIAL OPERATIONS COMMAND AND U.S. 
                         TRANSPORTATION COMMAND

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 27, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning.
    The committee meets today to receive testimony on the 
posture of U.S. Special Operations Command [USSOCOM] and U.S. 
Transportation Command [USTRANSCOM].
    Today we have with us Admiral William H. McRaven, 
Commander, U.S. Special Operations Command, and General William 
M. Fraser III, Commander, U.S. Transportation Command.
    Thank you both for your many years of service and for 
joining us here today.
    With the budget release delayed until next week, we are at 
a disadvantage in discussing the details of the budget and 
whether your priorities and requirements are addressed therein. 
To this end, I have requested a list of unfunded requirements 
from each of your commands. However, I would imagine that you 
can discuss the implications of the key decisions that 
Secretary Hagel unveiled in his budget preview on Monday.
    It is clear that continued cuts to defense are driving cuts 
in personnel, readiness, and modernization. These have real 
consequences in your areas of responsibility that I hope you 
will discuss here with us today.
    SOCOM continues to play a critical role in the areas of 
counterterrorism, unconventional warfare, and countering 
weapons of mass destruction. However, I am concerned the cuts 
to defense across each of the services may doubly impact our 
special operations forces as most special operations require 
critical conventional force assistance. To draw down one 
inevitably hurts the other.
    U.S. Transportation Command is a critical enabler, 
executing the logistical requirements for ongoing U.S. military 
efforts across the globe for the movement of cargo as well as 
personnel. The challenges TRANSCOM faces continue to grow as 
retrograde from Afghanistan continues and the military 
rebalances to the Asia-Pacific. We must remain ready to respond 
to contingencies elsewhere in the Middle East and Africa.
    In light of persisting budget constraints, the military is 
challenged to maintain its readiness posture, being forced to 
shed force structure, curtail flying hours, and return ships to 
port, reducing the availability of every lift capability upon 
which TRANSCOM relies.
    In short, SOCOM and TRANSCOM continue to execute vital 
military missions across the globe.
    Gentlemen, I look forward to your testimony. We are 
extremely grateful, as I said, for your service to our Nation.
    I also want to congratulate General Fraser on his upcoming 
retirement, what will have been more than 40 years of dedicated 
service to our Nation.
    We were just talking in the other room. I asked him what he 
was going to do on his retirement and he said, ``Well, I am 
going to move into a new home.'' And his wife is down there 
today receiving the furniture, while he is sitting here 
carrying out his duties. She once again has to sacrifice on 
behalf of our Nation. And thank you, thank you very much.
    Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    And welcome to our two distinguished guests, Admiral 
McRaven and General Fraser. It is good to see you.
    General Fraser, I share the chairman's remarks and 
congratulate you on a tremendous career in great service to 
your country, and wish you well in your retirement.
    And you are in charge of two of the more critical commands 
that make our military work. Certainly, TRANSCOM has performed 
some just unbelievable feats over the course of both the Iraq 
and Afghanistan war, and with all the challenges that come with 
moving the men and equipment and everything that goes into 
making sure that our warfighters have what they need, when they 
need it, in some very difficult environments where, you know, 
the typical areas where you could transport shifted, depending 
on our alliances and how we were doing with various countries.
    Every time I am in Afghanistan, I am overwhelmed by the job 
that you do. Last time we were there, they were showing us an 
area where we were sort of pulling all the stuff out, and all 
the stuff that was involved there, and the logistical challenge 
of getting it out in a responsible and an efficient way. I 
think you are doing a tremendous job.
    You know, one of the things we will really be interested in 
hearing from you this morning, of course, is as we go forward 
in Afghanistan, that the great unanswered question is: Do we 
get a bilateral security agreement [BSA]? And if so, when? And 
how does that affect our ability to pull out of Afghanistan 
responsibly?
    You know, are we in a position to wait until July or August 
to get that BSA signed and still be able to, if it doesn't get 
signed, make the transportation and the movements that are 
necessary to get our troops and equipment out. So I would be 
very interested in that piece.
    And Admiral McRaven, I think some of the most fun I have 
had in Congress was when I got to chair the subcommittee that 
had jurisdiction over the Special Operations Command. What you 
guys are able to accomplish and do is truly remarkable and 
amazing. It is an incredibly talented group of people that you 
work with and I know you know that.
    It is not just, you know, what we see in the movies and 
everything. You know, obviously, getting Bin Laden was, you 
know, right at the top of the list. But what I see every day is 
the understanding that the special operators have of what it 
truly means to secure a dangerous place: that it is not just a 
matter of killing the bad guys. It is learning how to prepare 
the environment so that the good guys are in a better position. 
It is training and equipping our allies and our partners. You 
know, it is building up the necessary infrastructure so that 
the government has the support it needs.
    You know, there is a wealth of skill in the Special 
Operations Command that is just, you know, the great pride of 
our Nation. And as we go forward, you know, that is going to be 
a critical piece of the fight. When you look at the biggest 
challenge we face right now is, I believe, the metastasization 
of Al Qaeda and their ideology. They are no longer conveniently 
in one or two places plotting and planning against us where we 
can target them. That ideology has spread.
    Will we face threats to the homeland from places like 
Syria, where new Al Qaeda affiliates are growing? Or Iraq, 
where they are back? Or Mali? It is hard to say. And the ISR 
[intelligence, surveillance, and reconnaissance] that SOCOM is 
able to provide and the ability to give us that analysis of 
what the threat environment looks like is going to be 
critical--that asymmetrical warfare is going to be the number 
one thing we need to protect ourselves.
    I am pleased that SOCOM, you know, continues to do 
relatively well in the budget. I say ``relatively well'' 
because I will close by echoing the chairman's comments, you 
know, that our greatest challenge remains the budget 
uncertainty. And it is great that we have got, you know, sort 
of 2 years of relative peace. Those are still a tough 2 years.
    The top-line number is not what I think anyone on this 
committee would like it to be. We have to live within it, but 
the truly scary fact is that top-line number may look like a 
walk in the park compared to 8 more years of sequestration if 
we don't do something about it.
    And I really want to emphasize that point for members of 
the committee. I think there is a certain sort of sigh of 
relief over the budget agreement. That is only 2 years. If we 
don't do something to deal with sequestration, the impact on 
our national security, I believe, will be devastating. And it 
is not that I don't think the Defense Department can take cuts. 
They can, but sequestration is going beyond taking cuts and 
doing deep, deep, devastating cuts.
    And all I will say is, you know, there is no cause for 
optimism about our likelihood of dealing with sequestration. In 
fact, just 2 weeks ago, we actually added an eighth year of 
sequestration to try to pay for the short-term concern over the 
COLA [cost-of-living adjustment] cut for military retirees. I 
voted against that. I think it was a terrible choice to put 
another year on top of sequestration. But that is where we are 
at politically.
    So, I will urge my colleagues to take a long, hard look at 
sequestration if you are concerned about our national security. 
You know, every time one of these budget items comes up in the 
next couple of months, where you say, ``Gosh, we can't cut, you 
know, pay and benefits for our military; we can't cut the 
Guard; we can't cut the A-10; we can't cut 12 cruisers''--11 
cruisers, sorry.
    Every time you say that, I hope that what you will do is 
you will go back and say, ``You know what we have got to do? We 
have got to get rid of sequestration so that we can have the 
budget that we need.''
    With that, I yield back. And again, I thank our witnesses 
for being here and for their service.
    The Chairman. Thank you.
    Admiral McRaven.

   STATEMENT OF ADM WILLIAM H. MCRAVEN, USN, COMMANDER, U.S. 
                   SPECIAL OPERATIONS COMMAND

    Admiral McRaven. Well, good morning. Chairman McKeon, 
Ranking Member Smith, distinguished members of the committee, 
thank you again for giving me the opportunity to address you 
today, the third time in my tenure as the commander of the U.S. 
Special Operations Command.
    I would also like to recognize my good friend Will Fraser 
for the tremendous work he has done as the commander of 
Transportation Command. There is an old saying in the military 
that amateurs talk tactics and professionals talk logistics. I 
can guarantee you that without the incredible support all the 
warfighters receive from TRANSCOM, none of us, absolutely none 
of us would be able to complete the missions needed for the 
safety and security of this nation. Will, it has been my honor 
to have served with you, and I do look forward to seeing you in 
Texas soon.
    General Fraser. Thank you.
    Admiral McRaven. Mr. Chairman, I am pleased to say that 
since my last posture hearing SOCOM has made great strides in 
dealing with the current conflicts, preparing for the future 
conflicts, and most importantly, taking care of our people. 
None of this would have been possible without the support we 
receive from this committee, and I am indeed grateful.
    SOCOM continues to provide the world's finest warriors to 
the fight in Afghanistan. As we approach the end of 2014, your 
special operations forces will be ready to adjust to whatever 
decisions are made regarding our future employment in that 
country.
    Globally, we are developing plans to better serve the 
geographic combatant commanders who, owing to the past 12 years 
of engagement in Iraq and Afghanistan, have gone under-
resourced with special operations forces [SOF].
    SOCOM is the Department of Defense's [DOD] synchronizer for 
the planning on the war on terrorism. It is also working hard 
to help better coordinate our activities locally, regionally, 
and globally, with both the geographic combatant commanders and 
the U.S. ambassadors.
    I believe the future of special operations will be in 
helping to build partner capacity with those willing nations 
who share our interests. This will mean strengthening our 
existing allied relationships and building new ones. No nation 
alone can stem the rise of extremism. We need our friends and 
allies more now than ever before.
    Our future as a special operations force is also 
inextricably linked to the general purpose force in the 
interagency. The past 12 years have shown us that a whole-of-
government effort is required to be successful, and in special 
operations, we have always known that without our fellow 
soldiers, sailors, airmen, and marines, we are destined to 
fail.
    Finally, with the help of this committee, we have gone to 
great lengths to take care of our most precious resource: our 
people. The Preservation of the Force and Families, or the 
POTFF, has already seen a marked improvement in the morale and 
the well-being of those who serve in SOF. While we still suffer 
from the tragedy of high suicide rates, I believe that we have 
laid the foundation for keeping our force and their families 
strong and resilient into the future.
    Once again, thank you for your interests, and your 
unwavering support for the men and women in the special 
operations community. I look forward to your questions.
    [The prepared statement of Admiral McRaven can be found in 
the Appendix on page 47.]
    The Chairman. Thank you. General.

 STATEMENT OF GEN WILLIAM M. FRASER III, USAF, COMMANDER, U.S. 
                     TRANSPORTATION COMMAND

    General Fraser. Chairman McKeon, Ranking Member Smith, and 
distinguished members of this committee, it is indeed an honor 
to be here with you today, representing the men and women of 
the United States Transportation Command.
    Our total force team of men and women, military and 
civilian, is dedicated to providing reliable and seamless 
logistical support to our warfighters and their families around 
the world. I am proud to report that they have performed 
admirably since I met with you last year. Our Active Duty 
members, National Guard, Reserve, civil servants, merchant 
mariners, and commercial partners have met the challenges of 
the past year while maintaining a high operations tempo, 
supporting combat operations, sustainment efforts, humanitarian 
relief, and crisis action responses.
    From supporting relief efforts following Typhoon Haiyan in 
the Philippines, to continuing development of innovative ways 
to maximize throughput into and out of Afghanistan, to meeting 
the directed 34,000 troop reduction level by February of 2014, 
United States Transportation Command team committed themselves 
to ensuring our joint force maintains global logistic 
superiority.
    I have had the opportunity to observe firsthand during my 
travels throughout Europe, central Asia, and the Pacific, the 
support these world-class professionals continue to provide, 
and can tell you, they are doing the nation's business 
magnificently, without fanfare, and often under stressful 
conditions. I cannot be prouder of this team.
    United States Transportation Command continues to support 
our force reductions in Afghanistan through our close working 
relationships with the geographic combatant commanders, other 
Federal agencies, and our commercial partners in various host 
nations. We are postured to achieve the President's directed 
reduction in Afghanistan by December 2014.
    While Transportation Command team remains fully committed 
to our number one priority is supporting our forces overseas 
and executing the redeployment from Afghanistan. We are looking 
towards the future, and we are preparing for a different 
operating environment. Declining Department of Defense business 
for our industry partners requires careful consideration of how 
we ensure readiness of our organic and commercial air, sea, and 
surface capabilities into the future. The critical balance 
between organic and commercial capacity requires the analysis 
of readiness requirements, the capabilities required for all 
levels of response, and an understanding of economic factors 
affecting the industry's ability to meet the Department of 
Defense requirements in the future. We will continue to work 
with Congress, the Department of Defense, the interagency, and 
our commercial partners to find that right balance.
    As the global distribution synchronizer, United States 
Transportation Command depends on a worldwide, multimodal 
network of military and commercial infrastructure to ensure the 
rapid delivery of forces and sustainment for both humanitarian 
and contingency operations. This global network provides the 
strategic reach necessary for any contingency, and highlights 
the need for assured access and delivery capabilities.
    In order to support any worldwide contingency or 
humanitarian event, it is essential to preserve and improve our 
partnerships with our allied nations, maintain our en route 
infrastructure, and to continue to strengthen our commercial 
partnerships. The United States Transportation Command team is 
committed to working on these relationships and seeking 
innovative solutions to support our forces around the world.
    Chairman McKeon, during your time in Congress, you have 
championed our warfighters. You have championed their families 
by providing them resources and support necessary to 
successfully complete their missions and then return home. So, 
I want to personally thank you on behalf of all the men and 
women in the United States Transportation Command for your 
steadfast leadership as a member of the Armed Services 
Committee, and for your 4 years as the chairman. Godspeed in 
your future endeavors sir, and thank you.
    I would also like to thank Congressman Runyan and 
Congressman McIntyre for your unwavering support for the men 
and women in the United States Transportation Command. We value 
your leadership and wish you the best as you leave Congress 
later this year.
    Bill, I also want to thank you for your many years of 
service, and I do look forward to being with you in the great 
State of Texas.
    Ranking Member Smith, and to all the members of this 
committee, I want to thank you personally for your continued 
support of USTRANSCOM and all of our men and women, military 
and civilian.
    I am grateful for this opportunity to appear before the 
committee today, and I ask that my written statement be 
submitted for the record, and I very much look forward to your 
questions. Thank you, Chairman.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 61.]
    The Chairman. Thank you. No objection, both of your 
complete statements will be put into the record. So ordered. 
Thank you for your testimony, and now we will get to the 
questions.
    On Monday, Secretary Hagel announced an updated defense 
strategy that builds on the President's 2012 Defense Strategic 
Guidance contained in the upcoming Quadrennial Defense Review 
[QDR]. I recognize you are not at liberty yet to discuss the 
specifics of the budget, but it is my expectation that all 
combatant commanders, including functional combatant commands 
such as SOCOM and TRANSCOM, have been active participants in 
both the QDR and the budget process.
    With that in mind, I would like to ask, how will this 
updated defense strategy affect your areas of responsibility 
and priorities and requirements?
    How are your recommendations for the budget reflected in 
Secretary Hagel's recommendations that he previewed on Monday?
    Admiral McRaven. Mr. Chairman, thank you. You know, as we 
have gone through the last 6 or 7 months of the Strategic 
Capabilities Management Review, the SCMR process, we in the 
U.S. Special Operations Command have been intimately involved 
with all of the recommendations and the arguments that had to 
be made about how we need to go forward with U.S. special 
operations in the future, and I am pleased to say that that 
process that was run by both the Joint Staff and OSD [Office of 
the Secretary of Defense], served us well.
    And I am very appreciative of the Secretary's decision to 
level us at the fiscal year 2014 levels. I think that puts us 
in a very good position in terms of meeting our priorities and 
our goals for the future. So the process for USSOCOM, sir, 
worked well. Again, I am very appreciative of the Secretary's 
decision, and I think we are well-positioned to move forward.
    General Fraser. Chairman, thank you. And I, too, was deeply 
involved as we went through the SCMR [Strategic Choices and 
Management Review] process and also through the QDR. I have 
been very appreciative of the fact that it has been a very open 
and very candid dialog as we went through that process. We were 
never without a voice there at the table and so I believe 
everything has certainly been considered as they went forward 
with that. In fact, the other day, we had the opportunity to 
review some of the final documents, and I had no red lines 
associated with that final review.
    The Chairman. Very good. On Tuesday, the President 
announced that the United States is moving forward with 
contingency planning for full withdrawal of U.S. troops from 
Afghanistan by the end of the year, should the United States 
not achieve a signed bilateral security agreement with the 
government of Afghanistan. At the same time, he left open the 
possibility of continuing to train and assist the 
counterterrorism mission there.
    Just this week, I gave a speech outlining my concerns that 
the cost of abandoning our national security interests in 
Afghanistan is much higher than the cost of staying. Even with 
the difficulties an enduring mission will face, I still 
maintain that a safe and secure Afghanistan is within our grasp 
and we should not let that slip away at this critical time.
    Admiral McRaven, how would your global counterterrorism 
mission be impacted by our complete withdrawal from 
Afghanistan?
    Admiral McRaven. Sir, thank you. We have been planning a 
number of options over the course of the last year as we looked 
at the potential for not getting a BSA or for the President's 
decision to accept numbers that were in various categories, 
shall we say.
    The fact of the matter is, sir, we have a plan to deal with 
every contingency. However, if we do go to zero, and there is 
no special operations component left in Afghanistan, it will 
certainly make it more difficult to be able to deal with the 
threat that we know is inherent within the Federally 
Administered Tribal Areas, and in the northern part of 
Afghanistan, in Kunar and Nuristan, and the potential 
resurgence of Al Qaeda in the area.
    So, it is a concern, but I know the President has had an 
opportunity to look at all our options. And we expect that he 
will make a decision when he has an opportunity to sit down and 
talk to President Karzai and how we are going to move forward 
with this. So, we have good options, sir, but if we go to zero, 
it will make things difficult. There is no question about that.
    The Chairman. Thank you.
    General Fraser, how does the uncertainty about the size of 
our presence in Afghanistan create risk in your mission?
    General Fraser. Thank you, Chairman.
    And as we have been directly engaged not only with the 
Central Command, but with the theater, we, too, have developed 
a number of options in order to meet whatever the final 
decision is. Whether there is a bilateral security agreement 
with a final number, or if there is not.
    We have sufficient capacity. We have sufficient capability 
through both organic and commercial capabilities to meet 
whatever decision is made.
    I believe also that we have continued to maintain the 
relationship that we have options, options in the sense that we 
can travel via ground through the Northern Distribution 
Network. We have recently opened up and got agreement again for 
another year of a number of those transit agreements, as well 
as overflight agreements, which we have been able to maintain 
because of the strong relationship that we have with a number 
of the countries.
    We have also been able to work with multimodal locations. 
And so, getting those agreements done again is giving us 
options, whereby we can go and fly things out of the theater, 
fly to another location, and then onward move it back to the 
United States via sea.
    Other options that we have, of course, is air direct, and, 
of course, through Pakistan, which is--our most cost-effective 
route is through Pakistan.
    We have incurred some challenges recently, but I will tell 
you that the southern port is working very well, and we 
continue to move goods both out of and into Afghanistan through 
the southern port of Chaman.
    So, we have options, we have capacity and we have 
capability, and we developed all of this in order to respond 
whatever the decision is.
    The Chairman. Thank you.
    I know when I was in Afghanistan last year, Secretary Hagel 
was there at the same time. And we both talked to General 
Dunford. And I left that visit thinking it was very important 
that we get that bilateral security agreement signed as soon as 
possible. I was hoping, like, 6, 8, 10 months ago. But I know 
that you have all these options available that you worked on. 
And I know General Dunford has said that he will be down to 
about 10,000 troops there by the end of August. So, we have 
actually between now and then before a final decision really 
needs to be made.
    I know they are scheduled for elections over there in 
April. And most of the candidates--11 of them--have stated 
publicly that they will sign the agreement. The Loya Jirga 
overwhelmingly supported; 70 percent of Afghans by polls 
indicate they want us to stay.
    So, I am hopeful that we won't pin our future and our 
security interests there on one person who is leaving office in 
April. So, hopefully, that this will get worked out, and we 
will be able to have a security force remaining behind to 
continue the mission of training until the Afghans are totally 
able to sustain themselves.
    Thank you very much.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    The chairman asked the question of--excuse me--for 
TRANSCOM, General Fraser, so I will let that go.
    General McRaven, talk to me--or--sorry--Admiral McRaven, 
talk to me about some of the training that you do. I know one 
of the things that you encounter is the Leahy law about human 
rights violations. And part of your effort, I know, is to train 
our--you know, hopefully, our partners so that they reduce 
human rights violations. So that they learn how to do police 
work and, you know, military work the correct way. Can you give 
us some examples of where you think you have been successful in 
that? Not just in effectively training a security force in a 
foreign country, but where you have improved their human rights 
practices.
    Admiral McRaven. Thank you, sir.
    First, I am a full supporter of the Leahy Amendment. I 
think there has been some mischaracterization over the last 
couple years about my position on Leahy, and I want to make it 
very clear that, you know, none of us in the military want to 
support anybody who has committed gross human rights 
violations.
    Having said that, the process in terms of within DOD and 
State Department has been a little slow in terms of how we vet 
these particular units to allow us to begin to train them again 
if they have been deemed, or if there have been allegations 
against them for human rights violations.
    We have a number of success stories, sir, but I will start 
with Colombia, which is probably one of our best success 
stories. Really, Plan Colombia, which I think probably 
initiated in the late 1990s, but we really got going with it in 
the early 2000s. And it was a whole-of-government look at 
improving Colombian security and putting them in a position to 
put the FARC [Revolutionary Armed Forces of Colombia] on the 
defensive.
    In the course of the last, really, 10 to 12 years, and 
working with the Colombian police, the Colombian military, and 
training them in what is appropriate human rights 
understanding. Every single time we do a program of 
instruction, one of the first blocks of instruction is about 
civilian control in the military, understanding what we think 
are the appropriate universal values--that is part and parcel 
to everything we do with every unit we work with.
    The Colombians were particularly receptive. We have a great 
relationship with the Colombians for decades. But really, as we 
began go build both the police force and the special forces in 
the military writ large, you began to see the Colombians gain 
the trust of the Colombian people, they began to push the FARC 
back. And now, of course, the FARC are on the brink. And while 
they are still a threat, they are--as you know, there are peace 
talks going on now between the FARC and the government of 
Colombia.
    Probably more importantly, the government of Colombia is 
now exporting security. So, when we started 10, 12 years ago 
with them, they were struggling to beat back a serious narco-
threat; now they have, in fact, pushed that threat back. They 
have built a phenomenal military and police force. And now, 
they are exporting to other Latin American countries. We think 
that is a----
    Mr. Smith. Just so I am clear on that example, part--you 
know, Colombia, obviously, has a significant security problem, 
but part of the problem also was that their security forces 
were perceived to not be respectful of human rights when you 
guys went down there. And that was one of the things you worked 
on to try to correct.
    I know you have done similar work in the Philippines. And 
is that a similar story?
    Admiral McRaven. Sir, again, each country differs a little 
bit in terms of how we felt their support of or their violation 
of human rights played out. There were elements within the 
Colombian military that had some human rights vetting issues. 
We worked through that. And generally, we run into that most 
places we go.
    We follow the letter of the law. We make sure that we are 
in compliance with the Leahy before we can do any training 
under our [Section] 1206 or 1207 authorities.
    Mr. Smith. Okay. Thank you very much.
    That is all I have, Mr. Chairman. Thank you.
    The Chairman. Just a note on Colombia. Some of us went 
there last week, and they took us out into the field and showed 
us the actual training that they do on human rights, based on 
what you have taught them. In fact, they made the comment that 
they are spending--or our people over there--that they are 
spending more time on human rights training now than we do. So, 
I commend you. That has been a fantastic success.
    This was a nation that, 10 years ago, everybody was saying 
it was a failed nation, and they have totally turned that 
around. And they are having great economic progress, as well as 
all these other things. And that is the preemption of taking 
care of a lot of these things, and the sustainability. We need 
to stay there and keep on top of these things so they don't 
slip.
    The last time I was in South America many years ago on our 
trip, we were able to go to Venezuela and Argentina, which we 
couldn't go to this time because they have had reversals. And 
Colombia, we couldn't go to last time, and now, is a fantastic 
success story.
    So, that is really much to be attributed to the special 
forces, and to the people of Colombia that demonstrated the 
will to stand up to those drug dealers. So, that--a great 
story.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral, thank you for your service and for being here 
today.
    Every once in a while, we just need to get touchstones of 
where we are. If you looked around the globe today and we used 
the term ``terrorist'' or--I don't mind if you want to use a 
different term--``extremist'' or whatever--that we would want 
to call them today--in your best professional military 
judgment, take a snapshot. You pick the number here. So, let's 
say the last 5 years. Have we seen those groups getting 
markedly stronger, markedly weaker, or staying substantially 
the same?
    Admiral McRaven. Sir, I think we have to look at the 
totality. And I will talk about Al Qaeda as our greatest 
terrorist threat right now.
    So, core Al Qaeda has gotten markedly weaker. The threat 
that was emanating out of the Federally Administered Tribal 
Areas with the support of other government agencies and the 
support of the Pakistanis--we have really decimated the core Al 
Qaeda. So, I would tell you that threat is significantly 
decreased.
    But, of course, what we have seen is the franchise elements 
begin to pop up. Al Qaeda in the Arabian Peninsula, Al Qaeda in 
the Islamic Lands--in Maghreb [AQIM]. We are seeing resurgence, 
of course, of Al Qaeda in Iraq, that is now morphing into Al 
Qaeda in Iraq and Syria.
    So, these franchises are beginning to grow up. However, 
having said that, I think what we see is a broader threat. But 
the high-end piece that we saw from core Al Qaeda is not as 
prevalent as it used to be. So, the threat is metastasizing. It 
is much broader. But I would tell you that the threat to the 
homeland, with one or two exceptions, is less today than it was 
certainly, you know, 5 or 10 years ago, when core Al Qaeda was 
stronger.
    Mr. Forbes. And I know you mentioned--and we know this is a 
holistic approach that we have to use--but if you had to give 
us again your best advice on our most effective asset, most 
effective resource that we can be utilizing to continue to 
reduce that threat around the globe, what would you say that 
would be?
    Admiral McRaven. Sir, this is a key component of a proposal 
that I am making to the Secretary, is, I feel it is about how 
we build other partner capacities. And the case of Colombia is 
instructive. And the case in the Philippines.
    So, with a small group of--a relatively small group of 
special operations forces, along with support from the State 
Department and the other agencies--you know, in Colombia, we 
were able to provide support to the Colombians, they, and as 
the chairman pointed out, because of their strong will, they 
were really able to kind of beat back the FARC. I think this is 
a good model as we look at threats in other places like Yemen, 
like Libya, across some of the other components in North 
Africa.
    So, how do we help build partner capacity so that the host 
nation can take care of its own problem? This is a--it is a 
long process. We need to be prepared to conduct direct action 
when those threats have a clear and present danger to the 
United States or to our interest. So, I think we always have to 
be postured to react or in some cases, to be preemptive in 
taking care of the barbarians that are at our gate.
    Having said that, we have to have a plan for a long-term, 
persistent engagement with our partners who really need to 
build the capabilities so they can handle the threat that is in 
their borders.
    Mr. Forbes. And General, thank you so much for your 
service. One of the things I think oftentimes we don't give 
enough credit to is our Military Sealift Command [MSC], and 
what they do. Can you tell us just a little bit of an overview 
of how important they are, and what is the thing you worry most 
about with our Military Sealift Command. Is it our industrial 
base, number of ships we have, the right mix, manpower, what 
would your assessment be there?
    General Fraser. Thank you, sir. And the military sealift 
obviously is a critical component of what we do and our ability 
to reach around the globe to move cargo in a very timely 
manner. It is a very efficient way in which we are able to 
provide support in the theater right now into Afghanistan, but 
also for the retrograde.
    It is also a critical component as we look forward to the 
Pacific. So, Military Sealift Command is around the globe, they 
are engaged, they are supporting other agencies, and doing a 
marvelous job. If I might, I would give one example of a 
Military Sealift Command working with us, working with the 
Department of Transportation MARAD [Maritime Administration], 
and this has to do with the Cape Ray. Getting this ship ready, 
out of the Ready Reserve Fleet, to be prepared to destroy the 
chemicals that will be coming out of Syria.
    This is a mission that has never ever been done before, so 
having that capacity and that capability of that type of ship 
to take a field deployable hydrolysis system, modify that to 
put it aboard the ship, and then train to the standards that 
are necessary to ensure the safe and effective destruction of 
those chemicals as they come out is an example of the 
flexibility that we have within Military Sealift Command within 
our Ready Reserve Fleet.
    And so, I think it is very important, as we look forward to 
the future, that we understand the capacity, the capabilities 
that our sealift provide for us. I would also comment on how 
important the Maritime Security Program is to us. And those 60 
ships that have signed up to be a part for the next 10 years to 
2025 and recommitted themselves to be a part of our commercial 
capabilities that are available to us is important to us 
because of also, the merchant mariners that are involved.
    So, there are a number of things that are involved with 
sealift that are critical to our future.
    Mr. Forbes. Thank you, General. Thank you, Mr. Chairman.
    The Chairman. Thank you. Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and I 
would like to take this opportunity to thank General Fraser and 
Admiral McRaven for their leadership and service to our great 
country.
    I have a question for you, General Fraser. I would like to 
get your take on the need for a robust depot-level ship repair 
capability on Guam. As you know, we have a number of Military 
Sealift Command in pre-positioned fleet off the Marianas, and 
it would seem necessary that having a robust capability with a 
dry dock is necessary to meet emergent repairs and general 
availabilities for that fleet.
    And further, can I get your assurance that MSC will do a 
better job in following section 7310 of title 10, which 
requires ships to be repaired in America? We see an increasing 
number of these ships still being repaired in foreign 
countries.
    General Fraser. Thank you, Ma'am. And as you know, we work 
very closely with the Navy and in a holistic manner to ensure 
that we have the capacity, that we have the capability 
necessary in order to meet the mission going forward into the 
future. And having the ability to have ships ready, repaired, 
and underway is critical to what we do. We work that not only 
directly with the Navy, but of course, through our Military 
Sealift Command. We will continue to engage them to assure--to 
make sure that we have the capacity and the capability to meet 
the demands in the future.
    Ms. Bordallo. And the dry dock is necessary.
    General Fraser. Ma'am, I am not at that level of detail to 
be quite honest with you, but we will certainly take a look and 
work with the Navy.
    Ms. Bordallo. Thank you, General. And my second question is 
also for you. Military Ocean Terminal Concord [MOTCO] is the 
main strategic seaport for shipping ammunition to the Pacific 
area of responsibility, the AOR, yet requires substantial 
improvements over the next several years. What is the timeline 
for these improvements, and how is the condition and the 
operating status of MOTCO affecting your readiness?
    General Fraser. Thank you, Ma'am. And Military Ocean 
Terminal Concord is a critical component of our support to the 
Pacific, and as we saw in the budget last year, the Army had 
laid in the necessary resources to ensure the viability of that 
port. One of the things though, that we have done, in between, 
is the continued assessment of the pier three itself, as well 
as looking at pier two and what we need to do in the future.
    We are working with the State of California right now 
through the environmental impact study. We have also modified 
the procedures to ensure the viability of pier three going 
forward in the future. And what I am talking about there is 
because of the analysis that we have been able to do on the 
pier, and the rate at which it is degrading, changing the 
operations procedures to only move trucks out there, to only 
move them across the rail line area, which has increased a 
little bit stronger than the other areas, as opposed to turning 
around on the pier and doing other types of things in order to 
meet the throughput that is necessary.
    So, we think we have a plan. We think the resources were 
laid in by the Army last year as we saw it in the budget, but 
we are on a timeline right now, and it is the EIS 
[environmental impact statement] is the next step in that 
process, as well as another fall engagement with our engineers 
to do some more boring on some of the piers to check for 
further degradation.
    Ms. Bordallo. Thank you, thank you. And General Fraser, I 
would like, in closing, to thank you and your staff for working 
with the Guam Guard and Anderson Air Force Base to address an 
issue of travel for spouses who have loved ones at the Warrior 
Transition Unit in Hawaii. This is critically important for our 
Guam Guard, and I appreciate the very quick work to address 
this important issue. And I yield back, Mr. Chair.
    The Chairman. Thank you. Mr. Miller.
    Mr. Miller. Thank you, Mr. Chairman. Thank you gentlemen, 
both, for your service. Probably the most pressing question I 
have is why Texas and not Florida? What? I am sorry man.
    As you may or may not be aware, the committee is 
undertaking a comprehensive defense reform effort, and it 
includes examination of the organization and management of 
defense acquisition, the regulations, and in the NDAA [National 
Defense Authorization Act] it requires SECDEF [Secretary of 
Defense] to develop a plan for streamlining Department of 
Defense [DOD] management headquarters. So what I would like to 
know from each of you, from your perspective, where do you 
think the committee could focus its efforts better, and where 
do you see opportunities for reducing bureaucracy and enhancing 
COCOM [combatant command] effectiveness and efficiency without 
resorting to across-the-board reductions?
    Admiral McRaven. Sir, several years ago, we did go through 
a SECDEF 20 percent reduction, efficiency reduction at USSOCOM, 
and of course, now we are looking at another 20 percent 
efficiency reduction. And frankly I am perfectly okay with 
that. I think that over the course of the last 10 years, 
speaking for USSOCOM, we grew the staff in order to address the 
problems that we were dealing with in Iraq and Afghanistan. I 
think we have figured out how to do business a little bit 
better, and frankly, some of these cuts make good sense to me, 
and I would even offer that I think there is additional 
manpower that could come out of USSOCOM.
    I would offer, however, that as we are trying to build up 
our capability in the theater special operation commands, some 
of what I have tried to do is migrate some of my manpower on 
the headquarters staff in Tampa out to the theater special 
operations commands to make them better staffed, to make them 
more receptive to their geographic combatant commanders.
    At this point in time, sir, I would say with the two 
reductions that we have taken, we are getting pretty close to 
where we need to be at USSOCOM, but we are always looking for 
more efficiencies, and I think that is true of all of my fellow 
combatant commanders.
    General Fraser. Sir, we too, in TRANSCOM, over a year ago, 
began a strategic review of our core capabilities that are 
necessary in order to execute our mission, and as we went 
through this review, we were able to identify areas in which we 
could be more efficient.
    We developed a new strategy focused in four areas. It was 
on readiness, it was on information technology excellence, it 
had to do with our development of our processes and procedures 
and aligning them properly within the headquarters to find some 
efficiencies, and lastly, developing the human capital.
    As we went through this review, we were able to find some, 
and that allowed us to also, at that time, identify positions 
that we did not backfill. So we had been planning for the 
future by not backfilling certain positions and taking those in 
anticipation of a cut that was coming, and so we think that we 
have postured ourselves for the future in identifying the core 
things that we need to be doing.
    Another area that we reached out was working with our 
components. We are located at Scott Air Force Base. We are very 
fortunate that we have the Surface Deployment and Distribution 
Command [SDDC], one of my component commands that is stationed 
right there. We also have Air Mobility Command [AMC] at a 
station right there. So we were able to reach out and work with 
two of our components to find some.
    One efficiency we found was coming up with one common 
billing center. Why did we need to have three? One in TRANSCOM, 
SDDC, and also in AMC. So, we have collaborated together to 
find an efficiency there, and that is also paying dividends.
    Another area that we have reached out to in Service 
Deployment and Distribution Command was acquisition area. They 
had their own acquisition organization, and they were able to 
find some efficiencies, actually, to help big Army by moving a 
couple of positions to our acquisition organization. Since we 
reside right there at the same location, we are able to then 
absorb that into our organization, do their acquisition, and 
give positions and billets back to big Army.
    So, we are not only looking internally, we are also working 
with the components to see if there are efficiencies and to 
make ourselves more effective in the future.
    Mr. Miller. Thank you very much.
    Yield back.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you gentlemen, again, for being before us today.
    General Fraser, last year in your testimony to Congress, 
you commented--and I will say it word for word here--``Hybrid 
airships represents a transformational capability, bringing the 
long-standing gap between high-speed lower-capacity airlift and 
low-speed higher-capacity airlift. Across a range of military 
operations, this ability--this capability can be leveraged from 
strategic to tactical distances.
    ``From swift crisis action support to enduring logistical 
sustainment operations, hybrid airship technology has the 
potential to fulfill factory to foxhole cargo delivery. We 
encourage development of commercial technologies that may lead 
to this enhanced mobility capabilities in the future.''
    Those were your words. So, my question is, are you still 
monitoring the hybrid airship progress? Is there a high 
probability--we have been looking at it ourselves, obviously, 
that--maybe in about 3 years, there might be a commercially 
viable 66-ton hybrid airship.
    Do you still believe in this technology? Can you tell me a 
little bit about where you are in that sequence, please?
    General Fraser. Thank you, ma'am. And, yes, I still stand 
by those words. And we have continued over the last year to 
follow the development of the hybrid airship. In fact, we also 
were very pleased to see the successful flight that Aeroscraft 
completed last year in their hybrid airship out in California. 
It was a very successful flight.
    We were also saddened to see that the airship was damaged 
when the roof gave way, and then----
    Ms. Sanchez. Something owned by the Navy, by the way.
    General Fraser. We were saddened to see the damage that was 
done to the hybrid airship, but we have continued to maintain 
our contacts with Aeroscraft. We are encouraged by that 
successful flight--the demonstration of that technology.
    We are also encouraged by a recent report that I received 
from them out at Aeroscraft of the interest in the commercial 
sector to develop this capacity and this capability.
    I can see utility in the future to utilize something along 
those lines, especially when I look at some of the things that 
we have had to respond to. As an example here in the United 
States, to be able to move great quantities into areas where 
you don't need a lot of infrastructure. And something along 
those lines. So, we will continue to monitor it. We will 
continue to encourage the development of the hybrid airship as 
they continue to go forward.
    Ms. Sanchez. So, you could see it as something that we 
could actually use in the future if it was a viable tech--if it 
was proven--if it was built?
    General Fraser. Yes, ma'am, I do.
    Ms. Sanchez. Thank you.
    My second question is for the admiral.
    What is the status of Vision 2020, which included expanding 
special operations footprint into 72 countries? And considering 
the type of budget constraints that we are looking at, in 
particular, in Defense's--I mean, we haven't seen the full 
budget, but we are getting some blueprint of it.
    What do you see? Do you see that 2020 still moving forward, 
Admiral?
    Admiral McRaven. Yes, ma'am, I absolutely see the Vision 
2020 moving forward. And as we went through the SCMR process, 
we actually used that Vision to articulate why we needed the 
budget levels we needed. And, frankly, it was a good argument 
that served us well in our discussions with OSD and the Joint 
Staff.
    So, I am very comfortable that the remarks that the 
Secretary has made and the decisions the Secretary has made to 
recommend to the President will put us in a good position to 
meet the goals of Vision 2020.
    Ms. Sanchez. And can you tell me what planning you have 
done with the Department of State--the State Department and 
with USAID [United States Agency for International 
Development], for example, or other agencies with the 72 
countries in mind to ensure that humanitarian efforts, in 
particular, are not duplicated?
    Admiral McRaven. Yes, ma'am.
    What we do is, we work with the geographic combatant 
commanders. And it is the responsibility of the geographic 
combatant commanders to coordinate with the chiefs of mission 
in the countries in which we will be conducting training. And, 
of course, most of this--you know, 99 percent of this is about 
training and building partner capacity.
    So, there has to be a demand signal from the host nation. 
So, if we are working with Niger or Nigeria, or we are working 
with the Philippines, the demand signal will come from the host 
nation through the U.S. ambassador up to the geographic 
combatant commander. And then my role as a functional combatant 
commander is to provide the resources to that geographic 
combatant commander.
    So, everything is done with the support and the approval of 
the chief of mission and the State Department.
    Ms. Sanchez. Thank you, Admiral.
    Admiral McRaven. Yes, ma'am.
    Ms. Sanchez. And thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. And thank both of you 
for being here today.
    And, Admiral McRaven, I appreciate that I have a son who is 
a physician in the Navy who has been in your command. And so, I 
appreciate very much your service.
    General Fraser, congratulations on your retirement--multi-
decades of service--four decades, and you can look back with 
such pride, to me. You were there for victory in the Cold War, 
providing, with a strong American national defense, a broader 
spread of democracy and freedom today than in the history of 
the world.
    So, thank you for your service.
    And for both of you, please provide your assessment of the 
U.S. force posture capabilities and readiness of your area of 
responsibility. How have these been affected by sequestration, 
the budget deal, and the possibility of further defense cuts in 
fiscal year 2015?
    Admiral McRaven. Sir, USSOCOM has a global responsibility, 
much like TRANSCOM. I am the Department of Defense's 
synchronizer for the planning for the global war on terrorism. 
So, my responsibility really is to provide the forces to the 
various geographic combatant commanders, depending upon what 
their demand signal is.
    So, as we have made that argument back to OSD, and that 
argument has resonated, I am very comfortable with where we are 
in the current budget. And now, sequestration is affecting all 
of us. The chairman mentioned that--in his opening remarks 
that, as sequestration affects the other services--the Army, 
Navy, Air Force, and Marine Corps, it subsequently has a 
trickle-down effect on U.S. Special Operations Command.
    I receive all of my manpower from the services. My 
recruiting base is from the services. My enablers are from the 
services. So, it is a little difficult sometimes to make a one-
to-one comparison when you look at the USSOCOM budget. I think 
our budget--the recommended budget is going to serve us well. 
However, as sequestration has affected the broad Department of 
Defense, it will absolutely affect our ability to conduct 
special operations globally.
    General Fraser. Congressman, I, too, am comfortable with 
where we are right now. But I do have significant concerns as I 
look forward to the future, because we are dependent upon the 
services in maintaining a certain readiness level in order to 
be able to respond in a timely manner, wherever that call may 
come, whether it is a humanitarian or a crisis response.
    And as I look forward into the future, and I see under 
sequestration that the possibility of the readiness levels 
going down, will definitely impact our ability to respond in a 
timely manner.
    And so, that is an area of great interest to us in 
Transportation Command.
    Now, as I look forward to the future, one of the things 
that I think that we can do in Transportation Command is to try 
be more creative in bringing more business into the Defense 
Transportation System. We are a working capital fund. So, as we 
do business for the services and they reimburse us, the same is 
true for other government agencies or other organizations that 
we reach out to.
    So, we are very appreciative of what Congress has done for 
us and allowing us, as an example, to be able to charge DOD 
rates for foreign military sales. This has opened up an 
opportunity for us to further establish a relationship with 
Defense Security Cooperation Agency and bring more business 
into the Defense Transportation System [DTS].
    So, that is going to be very helpful for us as we look 
forward to the future. In fact, Admiral Rixey has already been 
out to visit us. We have had very good discussions. And so, 
that is one area that we are looking forward of doing more 
business.
    The areas, too, that we are reaching out is to build the 
trust and confidence with other organizations to bring more 
business into DTS. That will help us mitigate some of the 
future challenges that we are going to see. But as the services 
go down in their readiness levels, that will have a definite 
impact. But we are trying to do what we can on our own to reach 
out to others to keep that readiness level up and bring more 
business.
    Mr. Wilson. Well, thank you both for pointing this out. And 
I am particularly concerned. What we are talking about is 
defense sequestration. The American people think of 
sequestration and think of reduced spending. No, it is my view 
that 50 percent of the cuts are on 15.1 percent of the budget, 
which is defense. And so, it is really an assault on the 
military. So, thank you for even having a positive attitude. I 
am impressed.
    Admiral McRaven, I understand that there has been in the 
U.S. Northern Command [USNORTHCOM] a Special Operations 
Command, North established. How is this being resourced, and 
how would this proceed?
    Admiral McRaven. Sir, thank you.
    I have theater special operations commands with all the 
geographic combatant commanders. We did not have one with 
NORTHCOM until last year. And in discussions between General 
Jacoby and I, he was looking for me really to kind of up-gun 
the staff effort that we had at NORTHCOM.
    So, we have always had a presence--a detachment, if you 
will--at U.S. Northern Command. We didn't formally make it a 
theater special operations command [TSOC] until last year.
    I was able--getting back to these--the efficiency reviews, 
I did, in fact, migrate some manpower from the USSOCOM staff, 
and move it to USNORTHCOM to establish the TSOC.
    The TSOC's role really is to work through General Jacoby to 
support both the Guard and Reserve aspect of it. We work 
closely with the Canadians. We work closely with other partners 
with USNORTHCOM. And so far, I think it has been a good move 
for us.
    It is a pretty small theater special operations command, 
certainly relative to someone like SOCCENT [Special Operations 
Command Central], which is my largest of the theater special 
operations command. It is a small effort, but we think it is an 
important effort for USNORTHCOM.
    Mr. Wilson. Thank you very much for the American people.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman.
    General Fraser, you and I have had many discussions. As you 
know, I am a big fan of TRANSCOM. I think that things don't 
happen without TRANSCOM. And TRANSCOM isn't given as much 
credit as it should. Of course, I have jokingly told you that I 
call you the Corporal Klinger of the whole military, because 
you make things happen.
    Having said that, there is an issue that is very critical 
for us in Hawaii, and that, of course, is the GPC [Global 
Privately Owned Vehicle Contract] contract. I do know that it 
is under protest. And for my colleagues here, that, of course, 
is the movement of the private automobiles, especially of our 
men and women in uniform. And you can imagine how important 
that is for them.
    I am wondering, has there been anything new decided in that 
case? Has the Court of Claims made a decision?
    General Fraser. No, ma'am, that is--as you know, was a 
contract that was decided last year. It came under protest, and 
[U.S. Government Accountability Office] dismissed that protest. 
Shortly after that, then, the outgoing company then filed in 
the Court of Federal Claims. It is in the Court of Federal 
Claims, and is scheduled for a hearing on the 7th of March, and 
we are under a protective order until such time.
    Ms. Hanabusa. Yes. And I do not want you to, of course, 
violate that. But to the extent that you might be able to share 
some information, and if you can't because it is covered by the 
protective order, I clearly understand that, but I was 
wondering, are there any assurances that you can give me as 
well as the--in particular, the service members in Hawaii that 
they will never--that they will not suffer any kind of loss as 
a result of that, and in fact, you would be able, as a result 
of the awarding of this contract, to the subsequent bidder, 
that there will be no added cost to the DOD. And of course, 
what I was concerned about was the issue regarding the 
transition costs.
    General Fraser. Ma'am, this was an open competition. There 
were multiple bidders on this particular contract. It was a 
best value contract that we looked at. The source selection 
committee then made their selection and then, since then, we 
have already mentioned, we have gone through several protests. 
We are aware of that. We are aware, also, of some of the 
accusations that have been made.
    I can assure you that we are--have taken these accusations 
and looked at each of them and have found nothing that would 
cause us to reverse our decision, any red flags, utilizing 
everything that is available to the command, as well as other 
national agencies and organizations.
    Ms. Hanabusa. And as we both know, one of the accusations 
was with the winning contractor's alleged connections to North 
Korea. And, I don't know if that is also part of this 
protective order, but if it isn't can you explain to me what 
you have done to ensure that that is not an issue?
    General Fraser. Ma'am, we used everything that was 
available to us when the accusations were made, and we could 
not find anything to substantiate that.
    Ms. Hanabusa. So, that is not part of the challenge that 
has been filed in the Court of Claims?
    General Fraser. I am just commenting on what we have done 
and what is in the Court of Federal Claims will be determined 
on the 7th of March.
    Ms. Hanabusa. And what is the process, General, in the 
event that the Court of Claims were to reverse the dismissal? 
What then happens? Is it a rebid or is it something that, you 
know, it is awarded to the next lowest bidder, or--what happens 
then?
    General Fraser. Ma'am, I would have to stand by for that 
decision, and then that would give us direction as to what to 
do.
    Ms. Hanabusa. Thank you.
    And in my closing time, General, I just want to know that 
as you know, there is a pivot to Asia-Pacific, and in your 
statement, you talk about the fact that the airlift and sealift 
and the USPACOM [United States Pacific Command] AOR remains a 
critical requirement. Do you feel that you have enough in terms 
of the airlift and sealift capability to meet the demands as 
you anticipate it to be in the pivot to Asia-Pacific?
    General Fraser. Yes Ma'am, we do. Coupled with both our 
organic and commercial capabilities, we are confident that we 
can meet the missions of PACOM.
    Ms. Hanabusa. Thank you very much.
    And I yield back. Thank you.
    The Chairman. Thank you. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman, and I want to thank 
both of you for being here and for your service to our country. 
It is great to have the 10th Special Forces at Fort Carson in 
Colorado, and they do such a great job. I visited them recently 
and they are really excelling at what they do. So thank you for 
your leadership there.
    I recently had the honor of sitting down with one of my 
constituents, Susan Allman, and hearing her family's story. It 
is a story that involved her husband, who is father to their 
children and an outstanding man who is a Green Beret who did 
serve with the 10th Special Forces. Tragically, the rigors of 
the job that we had asked him to do had worn on him mentally, 
emotionally, and physically, to the point where it became too 
much for him to bear, and he took his life.
    Susan came to me to share his story and to celebrate his 
life, but she also came to me to help prevent the tragic loss 
of our heroes in the future by raising awareness about SOCOM's 
Preservation of the Force and Family program. You mentioned 
that earlier, Admiral. She conveyed to me that the program was 
not in existence when her husband was struggling, but after 
learning about it and its merits, knew that if he had been able 
to participate in it, he would be here today with her and the 
children and continuing his career with the Green Berets--with 
the special forces. So, Susan is here today in the audience, 
and I want to again express my condolences to her and thank her 
for her sacrifice to our country.
    How is this program, the Preservation of the Force and 
Family program, supporting service members and their families, 
and what does it mean for the overall readiness of special 
operations forces?
    Admiral McRaven. Sir, thank you. And let me also pass on my 
condolences. Our suicide rate, unfortunately, has grown here 
over the past 3 or 4 years. It has remained steady over the 
last 2 years, but it is of great concern to me as I mentioned 
in my opening remarks. I will go back to my predecessor, 
Admiral Eric Olson. Prior to change in command, Admiral Olson 
had initiated a Pressure on the Force and Families Task Force. 
So, he went out, and for about 10 months of this task force, 
interviewed 7,000 soldiers, about 1,000 spouses, had 440 
different meetings with small units, and the report literally 
landed on my desk the day I took command.
    And Eric told me, ``You need to read this. We have got to 
do something about how the force is fraying.'' And that was the 
term he used at the time, that the force was frayed. And this 
was in 2011. Well, sir, the force has continued to fray. But 
that was really kind of a wake-up call for us.
    I came into the military in 1977 at the end of Vietnam, and 
most of the folks that raised me were Vietnam veterans; and 
frankly sir, we didn't do a very good job of taking care of our 
veterans. And I know I speak for all the service chiefs and all 
the combatant commanders; we are not going to let that happen 
again with this generation, and we appreciate the support of 
everybody on Capitol Hill to make that happen, to put our 
soldiers, sailors, airmen, and marines in a good position as 
they move forward.
    But with that report from Admiral Olson, we initiated, we 
turned the Pressure on the Force and Families to the 
Preservation of the Force and Families. And frankly sir, we 
have dedicated a lot of time and effort to figure out, How do 
we help the force and the families? And this was a key 
component of it. And we have a number of sub elements to the 
POTFF.
    We have the Human Performance Program. It is really focused 
on the individual soldiers, sailors, airmen, and marines that 
are preparing to go overseas in a combat environment. We take 
care of them prior to their deployment, on their deployment, 
and when they return from deployment. It is really an 
opportunity physically to get them back up to speed as quickly 
as we can, and we have seen some tremendous results as a 
function of that.
    The second piece is the Psychological Performance Program. 
Similar, we are working through the Defense Health System. They 
are actually kind of contracting for some of the health care 
professionals we need to deal with the psychological problems 
that we are finding with a lot of our returning soldiers.
    And the other components are really about family 
resiliency. And this is an area, and I have, again, made a 
successful argument, and the folks on Capitol Hill have been 
very supportive, as I have said, you know, in the past, I think 
we as a service take great care of our families, but this has 
been an incredibly stressful time.
    Mr. Lamborn. Now, Admiral, this program took some hits in 
the last year's budget.
    Admiral McRaven. It did, sir.
    Mr. Lamborn. Are you concerned about that for the next 
year?
    Admiral McRaven. Sir, what we did was we actually migrated 
some money to Defense Health Systems to be able to manage some 
of our Psychological Performance Programs, and I am okay with 
that. I think they will do as good a job of managing it as we 
could, and we are fine with that.
    Frankly, sir, I think we have got to figure out how much we 
need to invest over time to determine whether or not we are 
actually getting the return on our investment. I can tell you, 
anecdotally, when I travel around and I talk to the spouses and 
I talk to the service members, they are very appreciative of 
the Preservation of the Force and Families program.
    But, at some point in time, I will need to come back to 
this body and be able to show categorically how this has 
helped. I think I can do that to a degree now, but it is going 
to take us a couple years to see the results of this effort.
    Mr. Lamborn. Thank you so much.
    Admiral McRaven. Yes, sir. Thank you.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    General Fraser, it is good to see you again.
    Last year, at your posture hearing, we talked about what 
would happen to the surge capacity should we have to lay off 
the merchant marine fleet and move these ships from the 
readiness level they are at to the point where we actually have 
to lay off some of the crews and perhaps, eventually, 
reflagging of some of the commercial ships.
    U.S. flag merchant ships operating worldwide in commercial, 
international trade markets, and in support of U.S. Armed 
Forces overseas, are carrying fewer defense cargoes as military 
ops wind down in Afghanistan. And as you know, our defense 
cargo is reserved for U.S. flag merchant ships under cargo 
preference law intended to help sustain a reliable cargo fleet 
capable of meeting military support requirements.
    You mentioned briefly, earlier, the Maritime Security 
Program. I am also, of course, an associate of this Voluntary 
Intermodal Sealift Agreement program. Could you elaborate a 
little bit further as to what TRANSCOM initiatives are to bring 
more government-financed cargo into the Defense Transportation 
System to assist U.S. shipping companies and to avoid losing 
more of these U.S. flag ships?
    General Fraser. Well, thank you, ma'am. And, a couple of 
initiatives that we have taken. First, I would say that we 
stood up an Enterprise Readiness Center [ERC] at our 
headquarters. This organization, we took out of hide, within 
our headquarters, to establish it, to look forward to the 
future in areas that we might be able to reach out to bring 
more business into the Defense Transportation System.
    We are seeing the fruits of that in the foreign military 
sales, as I have mentioned. What we have also seen is the 
ability to reach out to a couple of other organizations, too. 
As we begin that dialog, they are more interested. The other 
thing that we have done is establish a better relationship, 
also, with the Defense Logistics Agency, and so they are 
bringing more into the Defense Transportation System.
    So this is all there. They are small steps, they are 
initial steps, but I think they are areas which we will see 
continue to grow. The other initiative that we took this last 
year that hadn't been done before, is we reached out to 
industry through the National Defense Transportation 
Association [NDTA] to bring a private sector representative 
[PSR] to sit in our headquarters. This is a model that we 
actually got from FEMA [Federal Emergency Management Agency], 
after I had visited FEMA and seen where they bring in industry 
specialists.
    So, we figured out a way to bring industry into our 
headquarters and sit in our headquarters and then look at the 
processes, the procedures, and look at other alternatives that 
are out there for not only the best practices, but areas that 
we might reach out to bring more business in.
    The first representative is from the maritime industry, and 
will be in our headquarters for 6 months. Industry pays for 
this, takes it out of hide; but they feel it is something 
worthwhile in making that investment.
    We are now in the process of looking forward to who is 
next, looking at another mode, whether it is a 3PL [third-party 
logistics], a surface, or maybe even an aviation 
representative. So, we are beginning that dialogue with NDTA.
    We are encouraged by what we are seeing, both out of the 
ERC, the Outreach Program, and this PSR rep, as a couple of 
things we have done.
    Ms. Duckworth. So, it is not just the sealift capability, 
but it is also airlift with commercial airlines?
    General Fraser. We are across all modes.
    The other initiative that we took this last year was to 
stand up an executive working group for surface. This had not 
been done before. So, now we have a Surface Executive Working 
Group that reaches out and works with industry, both rail and 
road mode. We already had a maritime, and we have an air, so 
now we are covered across all the modes.
    Ms. Duckworth. Thank you.
    General McRaven--I mean, Admiral McRaven--sorry. Didn't 
mean to insult you.
    I wanted to chat a little bit about the global special 
operation forces network. And the guidance from the Joint 
Chiefs requires that for you to carry out this plan, it must 
remain resource-neutral. So that if you pursue this strategy of 
creating a global special operation forces network, can you 
talk a little bit about what are your plans to remain resource-
neutral? And are you prepared to cut resources in other areas 
to maintain this network? And how would you re-allocate 
resources? And what types of things do you need from us to help 
you to establish this network? Is it authorities--additional 
authorities? What do you need to make this happen?
    Admiral McRaven. Yes, ma'am.
    The network itself, or the people that we have had, have 
actually been in these countries for decades. So, in effect, 
prior to 9/11, we had folks in about 120 countries at any point 
in time. Now, truth in lending--sometimes it was one person at 
an embassy. Sometimes, it was a couple hundred people, 
sometimes it was a couple thousand. But the people have been 
out there training with our allies for a very long time.
    What I am attempting to do is really to kind of link the 
people together so that the transfer of information from, you 
know, that young major that may be in Colombia who is working 
for SOCSOUTH [Special Operations Command South], and what he 
learns in Colombia is probably important to what happens in 
Africa, because the drug trade sometimes moves from Colombia to 
Venezuela to Africa to Southern Europe.
    So, my role really here is to link or to connect the dots, 
literally, that are out there around the globe.
    We can do this in a resource-neutral fashion. It is about 
rebalancing some of my resources, but within my portfolio and 
within the authorities I have as the special operations 
commander, we are able to do that.
    So, it is not so much about populating new areas, while we 
are looking at new areas. It is really about connecting the 
areas that are and the folks that are already out there.
    Ms. Duckworth. Thank you.
    I am out of time, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral McRaven and General Fraser, thank you so much for 
your service to our Nation. It is deeply appreciated.
    General Fraser, as you have spoken, for TRANSCOM to be able 
to achieve its mission, there are lots of resources out there 
that it utilizes, whether it is U.S. base structure, or whether 
it is agreements with other countries. I wanted to get your 
perspective on the recent Kuwaiti agreement, where we hopefully 
will be able to leverage that.
    Can you give us an idea about how you would leverage that? 
Who is going to package and process the equipment as part of 
that? Does that give us some more operational flexibility? And 
does it change the calculation when we look at the equipment 
that we are moving out of theater and the calculation as to 
whether or not we keep it or we provide it to partners in the 
region? Can you give us some perspective on how that agreement 
will be leveraged by TRANSCOM?
    General Fraser. Well, thank you, sir.
    If I can answer the last first--and that is a service 
responsibility to make the determination of the equipment, 
whether it will be designated as excess defense article, or it 
is going to be returned to the United States and then brought 
back into the stocks after going through depot repair, wherever 
that may be.
    So, that is a service responsibility. And we will move 
things in accordance with their wishes.
    The Kuwaiti agreement that you speak of has given us 
additional flexibility. If I might say, it has allowed us to 
use intra-theater airlift to then move equipment out of 
Afghanistan and into Kuwait and into a yard there. This, too, 
is also resource-neutral in utilizing the assets that are 
already there. They have processed a lot of equipment before, 
coming out of Iraq. So, they will then be responsible for 
receiving at an intermediate staging base, and then processing 
the equipment, preparing it for onward shipment back to the 
United States.
    Some of that--it may be determined that it stays there in 
pre-position stocks. But this has given us another alternative 
to get things out of the theater.
    One of the challenges that we had was when the Torkham 
border closed. We had a lot of equipment that was frustrated. 
We had over 800 pieces that were held up in the carrier holding 
yards. We had another 300 that were in other yards, and then on 
the road. And so, what we were able to do with this new 
initiative--and being very appreciative of what Kuwait is 
allowing us to do--is then multimodal these pieces of rolling 
stock out of the theater, and then they will be able to process 
it and bring it on back to the United States.
    The other pieces of equipment were then rerouted. And so, 
we have unplugged all of that that was up near the Torkham 
border since it has been closed, and rerouted it down south 
across the Chaman border.
    It has given us another way in which we can rapidly move 
equipment out of the theater.
    Mr. Wittman. As you look at your operations there in 
CENTCOM [Central Command], how important is the base 
infrastructure or the base capacity in the European Command in 
order for you to accomplish your mission to move both the 
equipment in and out of the Central Command?
    General Fraser. Sir, we are engaged with both the European 
Command, and also with AFRICOM [Africa Command], and what the 
laydown needs to look like from a mobility perspective. What 
relationships we need to maintain, what access we need to have.
    And so, as we look forward in the future, we are having a 
dialogue also with the European Infrastructure Committee, as 
they look at the tasks that they have been given, and what that 
laydown may look like in the future. So, we are an integral 
part of that in bringing that to the table.
    As you know, we are responsible for the global En Route 
Infrastructure Master Plan. And so, that is a key part of what 
we look at. And this is across the globe, not just in Europe. 
Because as we downsize, and as we come back and out of certain 
areas, I feel it is important that, as Admiral McRaven has 
talked about, about building partnerships, building those 
relationships, I think it is going to be important that we, 
too, also maintain these relationships--key relationships, as 
opposed--about access in the future. And then exercising that 
every so often so that we have the flexibility, the agility 
within the system to be able to respond, no matter where that 
call may be.
    Mr. Wittman. Can you give us a very brief perspective on 
the use of automated technologies? I know that there are a lot 
of great ones out there--things like item-unique 
identification, IUID, and automated information to data 
capture, AIDC. Can you give us some idea about how you might be 
able to use that in creating greater efficiencies within 
TRANSCOM?
    General Fraser. Sir, we have been the advocate and 
proponent for automated information technology. We use a little 
bit of everything, depending upon what we are moving and how we 
need to track it, and what is the best cost-effective way to 
track the item.
    We use anything from bar code in the supply areas all the 
way up to passive as well as active radio frequency ID. So, it 
is a case-by-case basis depending upon the material that we are 
moving.
    I have been in the yards overseas, as well as here in the 
States, moving foreign military sales equipment, and every 
vehicle will have an identifier on it so we will know where 
that is as it moves through the system.
    So, we are utilizing all different modes of AIT [automatic 
identification technology].
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Garamendi.
    Mr. Garamendi. I thank you, Mr. Chairman.
    Admiral McRaven, thank you for your services.
    My questions and comments are really going to go to General 
Fraser.
    Thank you very much for working so closely with us. We 
really appreciate all that you do.
    I am particularly interested in what you cannot talk about 
until next week, when the budget is out and the details 
relating to the Air Mobility Command and the plans that you are 
remaking in that regard. If you would like to comment ahead of 
that, I would certainly welcome it, but I suspect that you 
won't.
    The other issues are the very strong statement that you 
made in your written testimony concerning the sealift 
capacities. And I am particularly interested in the organic 
fleet, the age of it, and what plans you may have that you 
could talk about today, or maybe that you do have plans that 
you can't talk about.
    If you could cover that, and if you would like to say 
anything about the Air Mobility, I would appreciate it right 
now.
    General Fraser. Thank you, sir. And I will say that we have 
a wonderful working relationship with Air Mobility Command. 
They are maintaining the strategic airlift capabilities that we 
need in meeting the mission in the theater right now.
    Those young men and women continue to move forward in a 
very aggressive manner. This is not just in Afghanistan. But I 
would also like to comment on how flexible they are to meet 
other demands.
    So, when the call came and it was necessary to provide 
support to the Central African Republic, they were there. They 
moved, the crews went in. They started moving Rwandans, they 
moved Burundis. So, that has been very positive.
    They have also been very flexible and supportive of 
Southern Sudan, and the French in Mali.
    So, the flexibility that Air Mobility Command has is really 
wonderful. And maintaining that readiness has allowed us the 
flexibility to support other things, as opposed to just 
Afghanistan, and in supporting other operations around the 
world, too.
    With respect to sealift, as we look forward to the future, 
I do have a concern. It is in my statement. And this has to do 
with the Ready Reserve Fleet. The Ready Reserve Fleet is a 
critical component of our surge fleet as we look forward in the 
future to respond to any other crisis.
    The Ready Reserve Fleet is an aging fleet. It is normally 
lay berth. It only generates periodically to exercise the ships 
in a--what we call a turbo activation. But over the next 10 
years, we will have 1.6 million square feet age out. The ships 
are just old. And so, they are going to have to be replaced. 
So, we have tasked our staff through the Joint [Distribution 
Process] Analysis Center to do a cost-benefit analysis of 
options on what should we do to recapitalize this fleet. I 
believe it is a discussion that we need to have to make sure 
that we have that capacity and that capability in the future.
    That study is just underway. Should be completed in the 
not-too-distant future so that we can then begin to have that 
dialogue.
    Mr. Garamendi. Is the not-too-distant future timed with the 
next National Defense Authorization Act? Or do we wait until 
the subsequent one?
    General Fraser. Sir, we just tasked that out. That is an 
internal tasking that we have. It was not done by anybody else. 
But we wanted to start taking a look ourselves at what 
alternatives are there out there in the future to recapitalize 
that fleet to begin that dialogue.
    I would say in the next 45 days or so internally to our 
command, we should have that done.
    Mr. Garamendi. I would hope that that would be available to 
us. This is a critical component. It ought to be part of what 
we take up this year in the NDAA and at least set the stage for 
dealing with this issue.
    The other issues relate to the other components. I am on 
the Maritime Subcommittee at the Transportation Committee, so 
we interact on these things. We are just simply going to have 
to wait until the budget--until the President's budget comes 
out, and then we can go into detail about the equipment for the 
Air Mobility.
    In the meantime, I want to thank you for your service and 
your willingness to work with all of us. It has been a pleasure 
working with you and thank you very much, and good luck on your 
retirement.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Fraser, thanks so much for your dedicated service 
in U.S. Transportation Command and best of luck on your 
retirement.
    Admiral McRaven, thanks, obviously, for your leadership in 
the U.S. Special Operations Command.
    The former Secretary of Defense Robert Gates said before he 
left the administration words to the effect that he didn't 
envision the United States doing another Iraq and Afghanistan 
again, prospectively going forward; and words to the effect 
that we will not--he didn't see the United States invading, 
occupying and pacifying and administering whole countries 
anymore. And as an Iraq war veteran, I certainly second that, 
his view of that.
    So going forward, if we are not going to be doing the heavy 
footprint counterinsurgency or stability operations, and we are 
going to migrate more to counterterrorism to utilize Special 
Operations Command, one of the debates is, to what extent, 
though, that you can't--can--to what extent can you offshore 
it, counterterrorism? Or to what extent do you really need to 
have a physical presence on the ground, the human intelligence 
component, the other components, when we look at perhaps Yemen 
and Somalia as a template for going forward?
    Could you comment on that?
    Admiral McRaven. Yes, sir. And I think you have raised a 
good question. It is one of the things that we are trying to 
address in our kind of SOF global plan. And that is how do you 
go about conducting counterterrorism operations or building 
partner capacity without rocking the boat too much in terms of 
your relationship with the host nation.
    So one of the things that the special operations brings is 
a small footprint. It is cost-effective to put a small group in 
there. It is--they are culturally trained. They speak the 
language. We understand how to work with a U.S. embassy; how to 
work with our interagency partners; how to work with the host 
nation.
    And so as you look at the various areas where we are 
partnered against some of the CT [counterterrorism] threats in 
Yemen, in other countries around the world, that paradigm works 
pretty well for us.
    Now, in reference to Secretary Gates's comments, I would 
tell you our crystal ball as a nation has not been very good 
over the last several hundred years. So I think we have to be 
careful about assuming that we would never go to major war 
again. That is not to say that we should accept that as a 
given, but we should also recognize that that possibility is 
always out there.
    I would be concerned about thinking that the special 
operations community is the panacea for all our problems. We 
are not. I can tell you that U.S. Special Operations cannot 
stop the North Koreans from coming south. We cannot keep the 
Straits of Hormuz open. We can do some things and we do them 
very well, but frankly, we are linked very closely with our 
conventional partners. We can't do anything without the general 
purpose force as part of our enablers.
    So, I do think we have to be on the ground, partnered with 
our allies to go after the CT threat. Can you do some of it 
offshore or remotely? Only if, as you point out, sir, you have 
good human intelligence on the ground, provided by somebody, 
whether that is the host nation or others. You have to 
understand what the intelligence picture looks like. Or you are 
not going to be able to get after that threat no matter where 
you are located.
    Mr. Coffman. So, I certainly don't want to conflate 
conventional capability with counterterrorism capability. But 
it seems that we were more effective perhaps as a country when 
we look at post-Vietnam all the way maybe to pre-Iraq invasion 
in 2003, when we focused more on partnering with indigenous 
forces within a given region to accomplish our security 
objectives, rather than us going in with a very heavy footprint 
and accomplishing them.
    And I certainly--but there is no question, and I agree with 
you, we have to maintain strong conventional forces to deter 
those who would otherwise want to attack us.
    But can you go over again where you see these--to what 
extent Al Qaeda is franchising their operations at this point 
in time? And it is just--it is more of a movement, obviously, 
than it is an organization, is it not?
    Admiral McRaven. Sir, it is. Al Qaeda, of course, is an 
ideology. So you are trying to fight an ideology that, of 
course, now has people that are gravitating towards it. So as 
core Al Qaeda has been degraded significantly in the Pakistan 
region, we are clearly seeing the kind of cancer spread. Mainly 
our biggest threat is coming from Yemen. Al Qaeda in the 
Arabian Peninsula continues to be I think the greatest threat 
to the U.S. homeland. But Al Qaeda in the Islamic Lands of the 
Maghreb is a problem, as they are spreading across North 
Africa.
    We see Boko Haram beginning to conflate with AQIM in North 
Africa. We see ISI [Islamic State of Iraq] and ISIL [Islamic 
State of Iraq and the Levant] beginning to develop or fully 
developed and growing in the Iraq and Syria area.
    So as I mentioned earlier, I think the threats to the 
homeland, the high-end threats to the homeland have diminished. 
That is not to say that we don't still see some threat streams 
out there, but the high-end threats have diminished. The 
problem is the global threat has broadened with these 
franchises that are out there.
    Mr. Coffman. Thank you, Mr. Chairman. I yield back.
    Mr. Thornberry [presiding]. Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    General Fraser, it is so good to see you again. I think the 
first time I met you, I was still wearing Army BDUs [battle 
dress uniform] in your command headquarters at Scott Air Force 
Base.
    And, you know, General, I don't think I have ever had the 
chance to tell you that as a very young airman, I think I was 
E-3 at the time, I got to fly in a T-39 with your predecessor, 
General Jack Cappen at the controls. And it was a great thrill. 
Of course, when we first met, I had two of my three wings and 
the Illinois National Guard belonged to you--the 130s up at 
Peoria and the KC-135s right there at Scott.
    So I am familiar with many of the challenges that you have. 
And I was particularly pleased to hear in your earlier 
testimony, and I don't want to misstate anything, but I think 
you said that because of having TRANSCOM and AMC and the Army 
Surface Material Distribution Command all located at Scott, you 
were able to wring some efficiencies out of those commands and 
use some of the resources together in order to provide a better 
bargain for the American taxpayer. Have I got that right?
    General Fraser. Yes, sir, that is correct.
    Mr. Enyart. Super. I am so glad to hear that as a taxpayer 
and as a Member of Congress. Can you tell me what specific 
impacts do you expect to see as we have ongoing headquarters 
reductions? What impact will that have on TRANSCOM? And do you 
believe you have got further efficiencies that you will be able 
to bring about at Scott as a result of having all of those 
commands co-located there?
    General Fraser. Sir, we are always looking to be more 
efficient and effective. And so one of the things is is that as 
we have set up our processes and our procedures at the 
headquarters there through a very deliberate process to bring 
others in who have good ideas. One of the things that we have 
encouraged the young folks is to speak up. And if they have got 
a good idea, then let's get it on the table.
    They are very innovative. They are not shy about letting us 
know where some other efficiencies can be had. And so we 
continue to reach out to the workforce. They have identified a 
couple of areas that we think that we can find some other 
efficiencies. So one of the areas, and we are working this 
through the Joint Staff and through the Department of Defense 
right now, is do we maintain the joint scheduling shop, JOSAC 
[Joint Operational Support Airlift Center], as we move forward 
in the future.
    So all the aircraft are not in there. Is it the right thing 
to do to have a separate scheduling shop that does that? Or do 
you give that back to the services under the service secretary 
withholds and things of that nature? And so that is a potential 
efficiency out there.
    So, that is just one other example of an area that we are 
taking a look at.
    Mr. Enyart. General Fraser, in light of the drawdown in 
Afghanistan, how is TRANSCOM looking to maintain the readiness 
of both its private partners and its organic partners? And I 
was certainly very glad to hear that you have incorporated the 
private sector rep into your headquarters based on the FEMA 
model. That has certainly worked very good--very well for FEMA.
    But how do you intend to do that going forward?
    General Fraser. Well, sir, we have continued to engage our 
commercial partners, not only across the executive working 
groups, but also through the National Defense Transportation 
Association. They have a number of different committees, of 
which we have individuals that sit on their various committees, 
whether it is railroad, maritime, or aviation. And so we have a 
very open and candid dialogue.
    We also participate in their board of director meetings 
once a quarter. There are also a Transportation Advisory Board 
that occurs once a year that I attend, as well as other 
meetings throughout the year. So we are going to continue to 
reach out to industry, continue to bring them in.
    This last year, we also held a large meeting in St. Louis 
and brought in a lot of industry reps. We had over 600 that 
participated in this, which was very informative to them, to 
let them know where things were going in the future, what the 
future looks like. It is very difficult for them to build 
business plans when we can't give them assurances.
    And so that is one of the things that is very challenging 
right now, especially with sequestration and the inability to 
predict the future and what it is going to look like as far as 
any types of movements that are going to be out there. And so 
working with industry, we have got to be as open, be as candid 
as we can, while yet at the same time having this other 
initiative to bring more business into the DTS.
    Mr. Enyart. Thank you, General.
    Admiral, I didn't mean to ignore you. I had the great 
soldiers of the 20th SF [Special Forces] Group under my command 
also. But I apologize, I am out of time.
    I yield back.
    The Chairman [presiding]. Thank you.
    Mr. Runyan.
    Mr. Runyan. Thank you, Chairman.
    General Fraser, Admiral McRaven, thanks for being here. 
Thank you both for your service.
    General Fraser, congratulations and good luck in your 
future endeavors.
    And I know you know which questions are coming, General 
Fraser.
    As you know, I am very proud to represent the Joint Base 
McGuire-Dix-Lakehurst. There are some worries that I think a 
lot of people, specifically in that community, have, 
specifically dealing with the KC-10s, you know. And I think 
everybody agrees there that the refueling and air mobility 
mission there has been a spectacular display of what you all 
can do.
    And I am really concerned about the proposals to entirely 
eliminate this--the fleet of KC-10s. And I know my colleague, 
Mr. Garamendi, has the same concerns, as he has a good part of 
that fleet at Travis.
    Since the KC-10 is a tanker-cargo aircraft, how much tanker 
capacity will you lose if that proposal goes through? And if 
the entire fleet is retired?
    And do the combatant commanders agree with losing that 
capability?
    General Fraser. Sir, as it has been previously stated, we 
can't comment until the PB [President's budget] is delivered 
and we take a look at that.
    But I will say that I am very encouraged by what I am 
seeing with the KC-46. As that program continues to move 
forward, and that is going to give us the significant capacity 
and capability in the future, as that force is modernized. And 
we look forward to getting the KC-46 aboard.
    Mr. Runyan. Well, and I will--you probably won't comment on 
this, but if there is a requirement and a process in there, I 
think most people would agree that there is going to be a gap 
in the ability to execute that mission and the readiness 
because of whether it is overseas refueling, whether it is 
homeland security, you know, that the traffic in the Northeast 
corridor up there, that all these missions are, to--I am--at 
some point, you are going to handcuff yourself. And, God 
forbid, something happen, a delay in the 46 delivery. And it is 
something--can you comment on any of that?
    General Fraser. Well, sir, I will say that we completed 
last year and have reported back to Congress under a mobility 
capabilities assessment. And in that, we also talk about the 
tanker capability as well as the strategic lift and the 
tactical lift that is required in going to the future, and what 
that capacity yields and the ability to support the plans.
    And so, I would point to that as the most recent study and 
analysis that we did on the capacity that is required going 
forward.
    Mr. Runyan. Okay. Well, it is--I know what has been 
proposed has a huge portion of it has to do with sequestration. 
I wanted to point that out. And I know you have to do, say what 
you are saying.
    But I think most people when they look at a major part of 
airlift and refueling kind of being shelved or put off, it 
creates a hole as we are ramping up.
    We know the 46 is coming online, and it will be a huge 
asset to what we are able to do. But it is--I think there are 
still a lot of questions out there.
    I know I have continually raised them, and as this budget 
proposal comes forward, and that has been out there, I think it 
is going to continue to raise a lot more questions.
    And I know, you know, I know with TRANSCOM you guys have 
seriously considered other scenarios as going forward, 
depending on what the budget allows you to do.
    So I just wanted to raise that concern and plant that seed 
as we move forward.
    And I yield back, Chairman.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    And thank you both for being with us today. And thank you 
for your many years of service to your respective branches and 
to the country.
    And to you, General Fraser, I wish you all the best in 
retirement. I remember well when my father retired from the Air 
Force. It was a bittersweet moment of time for him. He loved 
being in the Air Force. And he was looking forward to more time 
with family and not having to move us every 2 or 3 years. But I 
really wish you well and hope your retirement is everything you 
want it to be.
    Admiral McRaven, I would like to address a question to you. 
It goes without saying that our special operations perform a 
critical mission for the country. And I am looking forward to 
discussing a specific aspect of our operation with you, and 
that is combat search and rescue [C-SAR].
    I am very proud to represent the men and women at Davis-
Monthan Air Force Base in Tucson. That is where my dad was 
stationed. That is how I came to the desert. That is where I 
met my wife when we were teenagers.
    So, there is a lot of both personal as well as professional 
pride in that incredible facility.
    As you know, Admiral, we have the 563rd Rescue Group there, 
one of only two active duty Air Force rescue groups dedicated 
to personnel recovery.
    And I have met with these airmen a number of times, and was 
joined in one of those meetings by Ranking Member Smith.
    We learned from them what they do and how important their 
mission is, not only, as you might know, to rescue and to 
search for military personnel, but many times they are helping 
us back home when we have a serious rescue mission in our 
community.
    It has been reported that last year the Air Force was 
considering moving C-SAR mission from Air Combat Command to Air 
Force Special Operations Command [AFSOC]. Quite frankly, I 
think this would be a mistake.
    I agree with what the Air Force said a few years ago, that 
under ACC, the C-SAR assets could be mobilized faster during a 
national crisis, integrated into combat training, and tasked to 
support all rotations.
    And, Admiral, given the importance of both the ACC and 
AFSOC command rescue operations, can you give us a sense of 
what the budget will look like for C-SAR operations, the combat 
rescue helicopter, and any plans for consolidation of the 
mission?
    Admiral McRaven. Sir, my son, an Air Force major, is also 
stationed at Davis-Monthan. And I was just out there a couple 
of weeks ago. Great airmen and a great facility.
    Sir, as you point out, the Air Force had looked at and 
investigated the potential to move C-SAR into Air Force Special 
Operations Command. The decision was made not to do that, and I 
fully supported that decision.
    I think it was, as with a lot of things, as the Air Force 
was dealing with sequestration, they were looking at 
opportunities to save some money to be able to resource other 
things. But at the end of the day, the decision was made not to 
do that. I am in complete agreement with General Welch. I do 
not know the details of the C-SAR budget, and I would ask--that 
is probably a question for General Welch, sir.
    Mr. Barber. Thank you very much again, to both of you, for 
your service.
    And is it fishing that is in the future or what are you 
going to like to do when you are retired, General?
    General Fraser. Seven grandkids, sir. Have fun.
    Mr. Barber. Very good. I wish you all the best.
    Thank you so much.
    I yield back.
    The Chairman. Thank you.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I certainly want to thank our panel for your service to 
this country.
    General Fraser, on your retirement, kudos.
    Wrong state, but that is okay. We can invite you back to 
Florida.
    Admiral McRaven, it is--Special Forces has done an 
outstanding job, and I really do appreciate your comments in 
regards to--some have pinned everything on special forces that 
can save the world, and we--I think you hit it right on the 
head. It is a mixture of conventional forces and special forces 
in regards to what you can do.
    Just quickly, though, on SOCOM, you have taken a lot of 
hits in regards to downsizing your command structure. And it 
sounds like you understand that and work that.
    Do you see any major hits coming to that command structure 
in the next budget?
    Admiral McRaven. Sir, I don't. As we have gone through the 
process, we have been able to make a pretty good argument for 
why we need the command structure we need. The Secretary has 
supported that argument. And I think we are going to do pretty 
well in the budget, sir.
    Mr. Nugent. I think you have. I mean I think that you have 
gotten down to a lean fighting position that you need to have.
    But as we look at a smaller component of our special 
operators, particularly as you look at our underwater delivery 
vehicles, as we may. And particularly when you look at the age 
of the fleet from that perspective, I know that SOCOM is 
working to come up with some other solutions on those 
submersibles, because we are working with these legacies that 
are, what, four decades old.
    And so, I want to make sure that we are doing everything 
that we can to help you. And I know you have made a lot of 
progress, particularly in the three last years. As things start 
changing, you can shift your focus a little bit on looking 
towards the future.
    So I think it is on the right track today, and I know that 
dry combat submersible is a priority for your command. I 
understand that you are using an accelerated approach to 
deliver this much-needed capability to our warfighters, who I 
care about, obviously, the most.
    Having three sons in the Army, I get it. And I want to make 
sure that our warfighters have the ability to reach their 
objective and being in a position to be successful and return 
back to us.
    Do you see any statutory requirements that we have in place 
that, you know, could harm the progress in the near term or in 
the future that we may need to address here?
    Admiral McRaven. Sir, thank you. The dry combat submersible 
is a key component of our maritime strategy as we move forward.
    And, as you pointed out, really over the last 12 years, as 
we have resourced more of our kind of ground components and our 
air mobility components to fight the wars in Iraq and 
Afghanistan, we probably haven't paid as much attention to our 
maritime mobility, both surface and subsurface, as we should.
    So the dry combat submersible is a key piece of our future. 
Right now, sir, there is a public law 112, that really I would 
offer could use a relook, because what it does is it takes us 
from exercising the dry combat submersible under a CAT 
[category] III program and wants us to look at it as a Category 
I program, so the difference between, you know, a smaller 
program and a larger program.
    Right now, as I look at it as an ACAT-3 [acquisition 
category] program, it gives me, as the SOCOM commander, 
flexibility in assuming risk. And this is what it is all about. 
And frankly, I am prepared to assume a little bit more risk as 
we work with industry to build this capability.
    If we have to look at it as an ACAT-1 program, then my 
ability to manage the risk and assume the risk is kind of taken 
out of my hands. So we would certainly request that we re-look 
this public law. And, if there is any room for us to maintain 
our flexible acquisition approach to the dry combat 
submersible, we would certainly appreciate that.
    Mr. Nugent. Well, I can certainly see--and having been an 
airmen, I hate to say back when, 1969 was actually--I think the 
Wright Brothers just gave up some of their stuff to us. But, 
the ability for us to reach our adversaries and put our folks 
in the best position to complete the mission, I think, is 
overwhelming and I really do appreciate your leadership, 
Admiral, in regards to looking past your nose and looking out 
into the future as--and we have not and you hit it right on the 
head.
    We have military--and I have only been a Member of Congress 
here for 3 years, but the government has not done a good job of 
predicting our future warfare. We have been pretty miserable at 
it. No one suspected that we would be in Iraq and Afghanistan 
simultaneously. So who knows what the future brings.
    So I do appreciate both of your leadership as we move 
forward.
    So thank you very much.
    And, I yield back.
    The Chairman. Actually, we have been quite consistent. We 
have been 100 percent wrong.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chair.
    Admiral McRaven, thank you very much for your extraordinary 
service.
    And, General Fraser, for yours as well, and congratulations 
on your retirement. Well earned.
    Admiral McRaven, I wanted to just, I think, follow up on 
the comment that you had made, really, in your testimony about 
the fact that our most extreme adversaries are not going to be 
susceptible to a non-violent message--ideology.
    And, so we don't have a lot of choices in that realm. And I 
think you have probably touched on this probably with a number 
of answers to the members here, but we are not able to do mil-
to-mil activity. Certainly there are a number of operations 
that we do to try and bring people together to capture hearts 
and minds, but when it comes to the next generation is there 
something that you feel that you are able to do that actually 
tries to break up the future for many of, young men 
particularly, that we encounter in that regard?
    Admiral McRaven. Yes ma'am.
    And this is probably the most difficult task we have found 
in the course of the last 12 years is how do you get what we 
think is the right narrative out to the young Muslims that are 
on the fence. And, of course, the preponderance of Muslims are 
absolutely righteous and where they need to be, but it is the 
extremists that create some problems.
    And no matter how much we try to address the narrative with 
the extremists, some of them are just irreconcilable and 
however having said that, we have a new generation that is 
coming up in the Muslim world, and I think we need to continue 
our efforts to work with them, to partner with them, to find 
the moderate Muslims that are willing to work with us to buy 
down the extremism in their countries.
    But extremism has a power all its own, and there are some 
out there that believe that the Al Qaeda ideology will crumble 
within itself, because it is a corrupt ideology and if we give 
it enough time it will collapse.
    I am not one of those people. It is a corrupt ideology, but 
I do not know that in and of itself it will collapse inside. 
And so I think we have to pressure it. We have to pressure it 
with the support of the moderate Muslims that are out there. We 
have to pressure with support with our forces forward and 
building partner capacities to isolate the threat. I think it 
has got to continue to be pushed into the recesses and isolated 
so that it doesn't have the capability and the reach to be able 
to conduct acts against the homeland and our national 
interests.
    Mrs. Davis. Along with our partners what has given you the 
most hope that that is a possibility down the line?
    Admiral McRaven. I think it has been my experience in Iraq 
and Afghanistan, and sometimes this is hard to convey to the 
American people just how good the Iraqi people and the Afghans 
are.
    Ma'am I will tell you, the folks that I have worked with in 
the Iraqi military and the Afghan military are absolutely 
fabulous. They are wonderful people. They are patriotic. They 
want the same things we want.
    So that gives me hope.
    Having said that, at the same time, there is an extremist 
element of this that is irreconcilable and that I think we need 
to continue to pressure and isolate. But, I think what gives me 
hope is the people I have met. When you meet them, they are a 
wonderful, wonderful people and we need to continue to work 
with them and----
    Mrs. Davis. Will special forces be playing a role at all in 
the election in Afghanistan, or are you folks in the background 
for this?
    Admiral McRaven. No ma'am, we--you know, the election is 
run by the Afghan people. And the U.S. military, in this case, 
we have no role other than to support the movement, you know, 
if we have to help move folks from point A to point B, the 
conventional military will do that, but no ma'am, we in the 
special operations community don't have a role in the elections 
in Afghanistan.
    Mrs. Davis. Yes.
    And General Fraser, just really quickly, is there anything 
you could change as you retire--any words of wisdom for the 
Congress? Ways that we work best with you?
    What would you like to tell us?
    General Fraser. Ma'am, I would just like to say thank you. 
Thank you for the open, candid dialogue that we can have in the 
relationship, because our ability to come over here to meet 
with you not only in this form but in the private meetings, I 
think, helps us all to better understand the challenges as we 
look forward to the future.
    And so, we need to make sure that we are able to continue 
to have that dialogue, because there are difficult times ahead. 
It is unpredictable as to what the future holds. We know that 
in TRANSCOM. We don't know where we are going to be called upon 
to go.
    So I look forward, even in my life after I transition, to 
continue to make contributions where I can. So thank you.
    Mrs. Davis. Thank you, we hope you will.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And I particularly was interested in the exchange with Mrs. 
Davis and Admiral McRaven. The only thing I think is important 
to add is, there is another narrative that the other side is 
trying to put out there, and we, I think, often don't 
appreciate how effective they can be at making things, wedding 
parties or whatever the issue is that we are combating in this 
battle of the narratives.
    It is another factor on the playing field. Admiral, you are 
kind enough to come back to us in a couple weeks with the 
Intelligence and Emerging Threats and Capabilities 
Subcommittee. I appreciate that. And so I may hold off in 
talking about other special operations issues until we have 
that opportunity.
    General Fraser, in addition to the good sense you have to 
retire in Texas, I wanted to ask about a couple things.
    In response to Mr. Wittman, you talked about the global 
infrastructure plan. There are some Members of the House and 
the Senate that are very concerned about the United States 
abandoning an air base in the Azores and believe that from a 
logistical standpoint that could be a key asset to getting to 
Europe, getting to CENTCOM, getting to Africa.
    Do you have any comments about that?
    General Fraser. Sir, we have provided input to the EIC, the 
European Infrastructure Committee, as to the bases we look at, 
the ability that--and capability that the various bases provide 
us. Also, looking at alternatives, trying to analyze that and 
what that would mean to the deployment of forces and moving 
around.
    And so, we are doing that analysis. We are working with 
them to make sure it is totally understood what the impact of 
any changes may be in the future.
    Mr. Thornberry. And when will that be complete--you may 
have answered that already.
    General Fraser. Sir, the EIC is a different committee that 
is part of the Department of Defense----
    Mr. Thornberry. So you are just submitting your input and 
you don't know when they are going to----
    General Fraser. We are a part of that.
    Mr. Thornberry. It is--as I say, there are some Members who 
are very concerned that we may be about to mothball something 
that we regret, one day.
    Let me go back. You were asked, I think, by Mr. Miller 
about, and you talked a couple of times about the different 
efficiencies you have found in your command.
    Going beyond efficiencies, as you have done these analysis 
and so forth, have you run into statutes or regulations that 
ought to be on our radar screen to help get more value for the 
money we spend in TRANSCOM?
    I mean, obstacles to doing things better, because one of 
the things the chairman has asked us to look at is those sorts 
of reforms. And there is a lot of money that is spent in your 
area.
    General Fraser. Yes sir, and one of the areas I have 
already pointed to has to do with our ability and flexibility 
in the command as an acquisition organization to work the 
different modes, the different contracts that are necessary to 
accomplish the mission. And, so having that.
    One of the things, though, that we are working with our 
acquisition folks is exactly what you are talking about, are 
those things--are there things within the regulations--within 
the Federal acquisition regulations that inhibit our ability to 
move forward in the future?
    One of the areas that I might highlight is, and this goes 
to other organizations or agencies, is trying to work with them 
as they make decisions and unintended consequences that it has 
with respect to Transportation Command.
    Where I am coming from there has to do whether it is 
support of the military sealift program--the Maritime Security 
Program, excuse me, last year when that was not fully funded, 
it was impacted by sequester, we broke faith with industry. We 
failed to pay them the last 6 weeks of the year. They had 
signed up. They had committed 60 ships, 10-year increments, and 
that was the same time we were about ready to go into another 
approval for them to commit and then we break faith with them.
    The unintended consequence is then how do they go to their 
boards, how do they work with industry to modernize, to 
capitalize, and re-capitalize as they go forward in the future?
    So are there other things that other committees in other 
areas have unintended consequences? Unintended consequences 
when we change the regulations and we are not--with cargo 
preference and that may be a minor adjustment, but that can 
impact merchant mariners.
    And so we are in a dialogue and have an agreement now that 
we are right at surge capacity for merchant mariners. That is 
why we are very supportive of the development of a national 
maritime strategy and working very closely with MARAD.
    So there are a number of areas that we have gotta work 
together on.
    Mr. Thornberry. Well, and certainly, you all highlighting 
those for us, because we may not pick them up--would be 
helpful.
    Thank you.
    The Chairman. Thank you.
    Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to know about any plans to expand theater 
operations--theater special operation commands.
    Admiral McRaven. Sir, we currently have seven theater 
special operations commands. There is no intent to build more 
special operations commands. Having said that, what I am trying 
to do is strengthen the special operations commands so that 
they can be more responsive to the geographic combatant 
commanders.
    So, as part of our review--our efficiency review--we 
actually migrated some of the manpower from the USSOCOM staff. 
But we will be doing that over the course of the next couple 
years through the theater special operations commands to give 
them more capability in the intelligence shop and their 
operations shop and their planning shop, and actually, in their 
acquisition shop, as well.
    Mr. Veasey. If you needed to expand with, you know, 
personnel reductions that are looming, how would you be able to 
do that quickly, you know, given those type of budget 
constraints?
    Admiral McRaven. Yes, sir. I think the plan that we 
currently have on the books, in terms of migrating the manpower 
to the theater special operations command, will put us in a 
good position to do the support we need to do for the 
geographic combatant commander.
    So, I don't know that I need any additional manpower. And I 
think what we have got in terms of a plan, a road map for the 
way ahead is sufficient.
    Mr. Veasey. As far as just resources and, I guess, 
competition for resources between the various services, how do 
you manage--how do all the branches manage that effectively 
under those sort of budget constraints?
    Admiral McRaven. Yes, sir. So, my money from Major Force 
Program 11--that is, USSOCOM money--that goes towards funding a 
certain part of a theater special operations command.
    So, you know, in general, I put about $20 million a year 
into a special operations--theater special operations command. 
Now, that varies.
    SOC Korea, for example, one of my smaller SOCs, is about $4 
million. SOCCENT, my bigger SOC, is about $40, $45 million.
    However, having said that, the services have executive 
agency responsibilities. So, they also have a bill to pay for 
the theater special operations commands. It goes through their 
service components.
    We need to continue to have them pay that bill. And, of 
course, the sequestration impacts them, and they are looking at 
where they can find cost savings. We are continuing to work 
with the services to make sure that the TSOCs do, in fact, get 
funded at the levels we think are appropriate.
    Mr. Veasey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Admiral, General, 
thank you for your testimony today and for your service.
    Good.
    Admiral McRaven, if I could just start with you--from 
fiscal year 2013 and fiscal year 2014, SOCOM-based funding was 
reduced nearly a billion dollars, with $183 million of that 
reduction coming from research, development, test, evaluation 
[RDT&E]. Can you tell this--were any of your priority 
acquisition technologies affected by this reduction? And as a 
corollary, are you concerned about support for emerging 
technologies currently in the R&D [research and development] 
phase that are needed to support SOCOM's mission set in the 
future?
    Admiral McRaven. Yes, sir. The R&D cuts we took, we kind of 
spread across the board so that no one program would take too 
dramatic of a cut. Now, that is not always the best way to 
manage your research and development, but it worked for us this 
time around.
    However, were we to take more significant cuts in RDT&E, 
then we would have to do really a vertical cut on some of our 
programs, and I think that would be detrimental.
    Having said that, my staff, as we have talked about--the 
imbalance within my portfolio in terms of RDT&E, and O&M 
[operations and maintenance] and procurement and MILCON 
[military construction] dollars. So, one of the things that we 
are working to do over the next couple years is figure out how 
do I get that more in balance. What is the right percentage of 
RDT&E I need to do as a resource sponsor with my service-like 
hat on in order to provide the best capability to the soldiers, 
sailors, airmen, and marines that I have?
    I am not sure I have that right, to be honest with you. 
What I do know is that we have not put enough into RDT&E over 
the last several years because, frankly, we have been fighting 
the short-term fight. As we looked at Iraq and Afghanistan, 
most of our money was going towards O&M to maintain our 
readiness, procurement money to buy the capabilities the 
soldiers needed. And we were not looking as far downrange as we 
should.
    Having said that, I think we are beginning to bring it back 
into balance, but we still need some work.
    Mr. Langevin. Thank you, Admiral.
    Admiral, if I could, also, can you talk about what role 
SOCOM is playing in the Defense Intelligence Agency's new 
Defense Clandestine Service [DCS]?
    Admiral McRaven. Yes, sir.
    We have been working with the Defense Intelligence Agency 
as they have developed this Defense Clandestine Service. And I 
am a strong believer and supporter of the DCS concept. What it 
will do is put U.S. special operations operators, working for 
the theater special operations commands, they will be 
essentially dual-hatted.
    Their tasking will come from the theater special operations 
command. They will have a reporting line, as well, to the 
Defense Intelligence Agency. They will work as an intelligence 
officer in various countries to collect the information that 
U.S. special operations needs to do its mission.
    So, I think the DCS approach is the right one. We have, I 
think, a good broad base support with the inner agency, and we 
are working very closely with our intelligence partners to move 
ahead with the DCS.
    Mr. Langevin. Thank you, Admiral.
    Last question for you. And then I hope I have time to get 
to General Fraser.
    Could you update us on the ISR requirements that your 
command has, and how that is driving your investments over the 
current budget window?
    Admiral McRaven. Yes, sir. ISR, as you know, is a critical 
component to everything we are doing on the counterterrorism 
side, and my staff--we are building an ISR road map to look at 
both the unmanned and the manned ISR.
    I think what we have got to take into consideration as we 
have, you know, come out of Iraq and we are drawing down in 
Afghanistan is, do we have the mix of ISR correct? Okay? In 
Afghanistan, we had the preponderance was unmanned, probably 
60-40 unmanned to manned.
    But now, as we move into other areas, we are trying to 
determine whether or not we need more manned ISRs. So, we are 
drawing down our U-28 fleet, for example, which is a single-
engine prop job that we used in Afghanistan quite effectively, 
but it doesn't have the legs, really, to meet some of the ISR 
requirements we have in continents like Africa, where the 
problem set will be longer-range.
    So, we are moving to an MC-12 platform. It is a dual 
propeller-driven, longer legs, better capability. We are 
looking at pure-fleeting our unmanned ISR, moving from the MQ-
1, the Predator, to the MQ-9, Reaper--pure-fleeting that with 
the high-definition sensor.
    So, that is all part of the direction we are heading. I am 
very comfortable with where we are.
    The services are supporting our requirement. So, we have a 
requirement for a certain number of orbits for U.S. Special 
Operations Command. And then the services have a requirement to 
support us with some additional orbits. And we are working 
closely with the services to meet those commitments.
    Mr. Langevin. Thank you, Admiral.
    I know my time is expired. I will submit my question for 
General Fraser for the record. And I know earlier, you spoke 
about the work you are doing. And you and I have spoken in my 
office privately about the work you are doing to support both 
the--our operators, as well as their families, and meeting all 
their needs so that the whole force is intact and staying 
strong.
    I thank you for the attention you are paying to that, 
Admiral. Great job.
    The Chairman. Thank you. The gentleman's time is expired.
    Thank you very much for your service and for being here 
today. And this hearing stands adjourned.
    [Whereupon, at 12:09 p.m., the committee was adjourned.]



=======================================================================


                            A P P E N D I X

                           February 27, 2014

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 27, 2014

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 27, 2014

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Admiral, can you outline for us some of the more 
difficult advanced technology requirements that SOF needs in order to 
maintain an edge on the battlefield? Are there needs with regards to 
the well-being of the families of our special operators that will need 
congressional action for you to be able to fully address?
    Admiral McRaven. Some of our most difficult advanced technology 
requirements include personal protection, signature management, first 
pass lethality, and color night vision. Another vital requirement is 
enhancing the survivability of our SOF operators by improving personal 
protective equipment. To address this challenge we are pursuing vastly 
improved protection capabilities through proactive/reactive novel 
material solutions, such as the Tactical Assault Light Operator Suit 
(TALOS). Our adversary's capabilities continue to evolve and improve. 
To maintain our edge on the battlefield SOF needs comprehensive 
signature management in all environments to avoid detection. We are 
evaluating novel technologies to provide SOF aircrews and their 
platforms with first pass lethality by rapidly acquiring ballistic wind 
data for vastly increased accuracy of unguided weapon systems. Finally, 
maintaining our tactical advantage at night will require revolutionary, 
game changing capabilities like color night vision. The goal of our 
color night vision effort is to provide the SOF operator the ability to 
see true color on a moonless night with just starlight--a tremendous 
tactical advantage.
    Taking care of our Service members and their families is a top 
priority--our people are the foundation upon which the success of any 
mission rests. USSOCOM is grateful for the support the Congress has 
shown for our Preservation of the Force and Family initiatives. This 
support has enabled USSOCOM to hire and embed professional staff into 
all of our units to help assure the physical, psychological, spiritual 
and social wellbeing of our community.
    We are especially grateful for Congress granting USSOCOM the 
authority to use appropriated funds to support family programs as 
authorized in the 2014 NDAA, Section 554. This authority, in 
conjunction with the authorities found in Title 10 U.S. Code 1789 that 
permit funding for chaplain-led family programs, will enable USSOCOM 
commanders to use appropriated funds to support family programs much 
like their counterparts in the conventional force.
    The Commander, USSOCOM (CDRUSSOCOM) has a statutory responsibility 
(Title X, Sec 167) to ensure the readiness of special operations 
forces. Although Sec 167 does not explicitly mention families as a 
component of operational readiness, we view the wellbeing of our 
families as an integral part of the readiness mix. Accordingly, the 
CDRUSSOCOM has an inherent responsibility to ensure that the families 
of those assigned to USSOCOM have the necessary resources and advocacy 
to withstand adversity and to support their service members in the 
accomplishment of their duties. The tools available to our USSOCOM's 
Commanders include the programs authorized by Sec 554 and the personnel 
hired as part of the POTFF initiative, particularly Family Readiness 
Coordinators.
    We view the Preservation of the Force and Family initiative as an 
enduring and dynamic requirement that will require continuous 
improvement and refinement as emerging technologies and practices are 
identified and introduced to our efforts. In keeping with this, USSOCOM 
requires sustained support to sponsor research that will inform our 
efforts across the psychological, social, spiritual and physical 
domains, and the resources and authorities to continue to support our 
families and assure the readiness of our forces.
    Mr. Langevin. Could you update us on the ISR requirements your 
command has, and how that is driving your investments over the current 
budget window?
    Admiral McRaven. U.S. Special Operations Command (USSOCOM) global 
ISR requirement remains unchanged. USSOCOM continues to implement 
innovative solutions working with the Services, Combat Support 
Agencies, and Geographic Combatant Commands (GCCs) within the confines 
of economic, political, and geographic realities. USSOCOM has adopted a 
balanced approach to focus on improving sensors, platform endurance, 
data transport architecture, and methods to process, exploit, and 
disseminate intelligence.
    The withdrawal from Afghanistan does not change USSOCOM's global 
airborne ISR (AISR) requirement (Memorandum for Secretary of Defense 
and Chairman of the Joint Chiefs of Staff-Airborne Intelligence, 
Surveillance, and Reconnaissance Support to Special Operations Forces 9 
January 2012; Joint Emergent Operational Need (JEON) for Airborne 
Intelligence, Surveillance, and Reconnaissance in Support of Special 
Operations Forces, 8 June 2012), but rather reflects a need to shift 
ISR capabilities to other regions in support of prioritized Special 
Operations Forces (SOF) operations. The locations where SOF operate 
outside of the Afghanistan-Pakistan region require a variety of means 
to successfully conduct ISR. USSOCOM is working closely with SOF 
Theater and Component commands to refine air, ground, and maritime ISR 
requirements to support the GCCs.
    Economic realities drive difficult decisions, but there is no 
anticipated demand reduction for SOF's unique capabilities. Continued 
ISR programming support from the Services and Combat Support Agencies 
in addition to USSOCOM efforts will remain essential through the Future 
Years Defense Program and beyond.
    Mr. Langevin. Transportation Command faces some unique challenges 
among the combatant commands. With the majority of your supplies and 
passengers traveling via commercial partners, and the vast majority of 
your traffic on unsecured networks, your networks have a large aperture 
size relative to other commands. Can you update us further on the steps 
you are taking to reduce your cyber vulnerability, both in terms of 
collapsing the number of touchpoints and in terms of contract 
incentives to commercial partners to better secure their own networks? 
Are you satisfied with the level of progress?
    General Fraser. U.S. Transportation Command (USTRANSCOM) is 
integrating critical systems operated by our service components behind 
a common security boundary with common technology and policies and 
enhanced situational awareness for USTRANSCOM and component network 
defenders. In addition, USTRANSCOM is including the new Federal 
Acquisition Regulation Clause, ``Safeguarding of Unclassified 
Controlled Technical Information'' in all of our new non-transportation 
contracts, while retaining the Cyber Security language we previously 
developed in our transportation contracts. We are continuing to build 
relationships with our commercial partners and law enforcement to 
increase collaboration and incorporate contract language based on 
industry best practices. Additionally, I am gaining operational control 
of cyber protection teams to augment our organic network defense 
forces. This will enable a better protective posture across the 
USTRANSCOM enterprise. We are fully engaged with U.S. Cyber Command and 
Defense Information Systems Agency to work through command and control 
of these assigned forces. The command is satisfied with our efforts to 
date and will continue to leverage opportunities to improve as they 
present themselves.
    The incentive we offer is the opportunity to do business with us as 
manager of the Defense Transportation System.
                                 ______
                                 
                  QUESTION SUBMITTED BY MR. GARAMENDI
    Mr. Garamendi. Can you please make available the TRANSCOM internal 
analysis on options to recapitalize the RRF. You mentioned this could 
be completed as early as within 45 days and we are very interested in 
ensuring that this information be made available to this committee.
    General Fraser. Once our analysis on recapitalizing the Ready 
Reserve Force (RRF) is complete, I will ensure the results are made 
available to you and the committee. I am encouraged by your interest, 
as the RRF plays a critical role in TRANSCOM's ability to meet surge 
deployment requirements in support of all combatant commands.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HANABUSA
    Ms. Hanabusa. At last week's hearing, I asked for assurances that 
our service members in Hawaii would not see a reduced quality of 
service with the new GPC III contractor. Would you please explain to 
me, in as much detail as possible, what USTRANSCOM plans to do to 
ensure that is the case?
    General Fraser. GPC III contract award is concluding litigation 
before the U.S. Court of Federal Claims and parties, including 
USTRANSCOM, remains subject to a Court Protective Order. The GPC III 
solicitation requires the awardee to provide the same, and in many 
cases improved services, regarding in-transit visibility, shipment 
time, on-time arrival rates and terms regarding in-transit damage. 
USTRANSCOM's mission is to provide unparalleled logistics support to 
our warfighters, and their dependents, all around the world.
    Ms. Hanabusa. You stated that USTRANSCOM ``could not substantiate'' 
any contractor relations with North Korea. However, it is my 
understanding that, while the new GPC III contractor itself may not 
have these relations, such relations may exist through the contractor's 
corporate affiliations. Can you confirm that the new contractor, either 
directly or indirectly through the directors and officers of corporate 
affiliates, does not have any ties to North Korean or Chinese Communist 
Party officials? When did USTRANSCOM first become aware of these 
alleged relationships?
    General Fraser. The Government carefully reviewed the allegations 
regarding ties between International Auto Logistics (IAL), its 
affiliates (to include certain board members), and alleged improper 
ties to North Korea. The Government investigated the matters at the 
Command and national levels. Based on these reviews, the Government 
found the allegations are without merit, do not give rise to any 
violations of law or regulation, and pose no undue security concerns. 
In addition, the Government reviewed pertinent Commerce and Treasury 
Department regulations regarding prohibited contracting entities and 
activities and conclude they are not applicable to awardee 
International Auto Logistics. USTRANSCOM first became aware of these 
allegations November 1, 2013 when the losing contractor, American Auto 
Logistics, raised them in a bid protest before the U.S. Government 
Accountability Office (GAO). GAO denied the protest.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER
    Mr. Hunter. When you appeared before a House Armed Services 
subcommittee on April 17, 2013, you identified ``first pass accuracy 
and enhanced lethality weapons'' as a ``difficult advanced technology 
requirement that SOF need[s] to maintain an edge on the battlefield.'' 
You went on to state that, ``SOF will increasingly need the ability to 
precisely apply exact weapons effects on specific targets with near-
zero collateral damage.''
    I understand the United Kingdom has fully and independently 
developed, with U.S. and U.K. manufacturers, a Dual Mode Brimstone 
tactical missile that was successfully integrated on an MQ-9 Reaper 
aircraft and demonstrated first-pass lethality at China Lake in 
December 2013 and January 2014. This missile has also been used 
extensively by the Royal Air Force in combat operations over 
Afghanistan and Libya, with extraordinary accuracy and low collateral 
damage. It seems that this is exactly what you called for during your 
April 2013 testimony when you spoke of the need for new technology to 
maintain our edge on the battlefield.
    One year later, what progress has SOF made in addressing the 
threat(s) it has identified, particularly as it relates to fast and 
erratically moving targets? Since the Dual Mode Brimstone missile has 
already been developed by our UK allies, is combat proven, and has 
successfully been integrated on a MQ-9 Reaper, is Dual Mode Brimstone 
on your radar screen to meet the precision-strike weapon requirements 
you outlined in your testimony last year?
    Admiral McRaven. U.S. Special Operations Command (USSOCOM) has 
fielded several service common weapons on the MQ-9 Reaper including 
multiple variants of Hellfire that are battlefield proven at minimal 
cost to the command. On other SOF strike platforms such as the AC-
130Ws, USSOCOM has fielded the Griffin Block III missile with a multi-
effects warhead which fits inside of the Common Launch Tube. We have 
also fielded the Small Diameter Bomb and are currently integrating the 
Laser Small Diameter Bomb. Both munitions provide increased first pass 
accuracy and enhanced lethality to the USSOCOM Stand Off Precision 
Guided Munitions arsenal at little cost to USSOCOM. Representatives 
from USSOCOM received technical capability briefings and observed live 
demonstrations of the Brimstone missile conducted at China Lake in 
December 2013. USSOCOM continuously explores opportunities to integrate 
new and affordable capabilities to meet warfighter needs however, there 
is currently no plan to acquire and integrate the Brimstone missile 
onto USSOCOM fixed wing strike platforms.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MAFFEI
    Mr. Maffei. SOCOM is posturing for a major tactical C4I (Command, 
Control, Communications, Computers, and Intelligence) recapitalization 
program, STC (SOF Tactical Communications), over the next few years. 
Current budget projections for communications equipment are relatively 
low, compared to previous years. What is the command's plan, timeline 
and funding, to procure and field STC?
    Admiral McRaven. USSOCOM procures tactical radios and delivers new 
capabilities via an ongoing annual Capital Equipment Replacement 
Program (CERP). We will continue to procure and deliver the next 
generation SOF Tactical Communications (STC) systems at a relatively 
constant rate each year. The STC procurement plan, timeline, and 
funding, as shown in the FY15 budget request are captured below.



------------------------------------------------------------------------------
                              FY15              FY16              FY17              FY18              FY19
                      -----------------------------------------------------------------------------
         Item                     Total             Total             Total             Total             Total
                         Qty      ($M)      Qty     ($M)      Qty     ($M)      Qty     ($M)      Qty     ($M)
----------------------------------------------------------------------------------------------------------------
Handheld               --       --        --      --        1       0.012     4       0.056     7       0.099
----------------------------------------------------------------------------------------------------------------
Handheld CERP          973      13.630    1,018   14.251    1,068   14.957    1,075   15.043    1,042   15.634
----------------------------------------------------------------------------------------------------------------
Manpack                --       --        --      --        11      0.439     12      0.482     12      0.492
----------------------------------------------------------------------------------------------------------------
Manpack CERP           214      7.711     240     8.903     196     7.435     156     6.086     160     6.396
----------------------------------------------------------------------------------------------------------------
Manpack-Fixed Mount    13       0.630     11      0.567     11      0.583     11      0.592     11      0.605
----------------------------------------------------------------------------------------------------------------
High Frequency CERP    153      1.836     144     1.733     146     1.761     143     1.859     145     1.893
----------------------------------------------------------------------------------------------------------------
TOTAL*                 --       23.807    --      24.457    --      25.187    --      24.118    --      25.119
----------------------------------------------------------------------------------------------------------------
*Item totals may not add to the program total due to rounding.


    Mr. Maffei. The Army is developing the Tactical Assault Light 
Operator Suit (TALOS) for SOCOM. Has there been any consideration on 
what communications systems, existing or new, will be leveraged to 
connect the operator?
    Admiral McRaven. USSOCOM, not the Army, is leading the development 
of a series of technologies necessary to construct a Tactical Assault 
Light Operator Suit (TALOS) in order to increase Special Operations 
Forces survivability. TALOS development is leveraging current and 
previous Army, Air Force, DARPA, and other Government research to lower 
the technical risk and reduce development time. The goal is to build an 
open architecture capable of adopting emerging improvements and provide 
a self-sufficient, standalone, expeditionary capability with increased 
capability at a lighter form factor. The communications interfaces will 
support connectivity with existing infrastructures (radio and cellular 
technologies), platforms, and organizations while enabling new 
capabilities.
    Although TALOS is initially intended for special operators involved 
in high risk missions, we foresee potential application across the SOF 
Enterprise as well as through DOD, among first responders and Wounded 
Warriors. The development of powered exoskeletons, advanced armor, and 
lightweight power generation and distribution systems have wide-ranging 
potential uses. TALOS staff are coordinating with Departments of 
Homeland Security, Energy and Veterans Affairs as well as 
representatives of New York Police and Fire Departments in an effort to 
increase awareness of the TALOS vision. It is envisioned that novel 
ballistic materials, advanced power storage systems, and exoskeleton 
advancements will be made available to other DOD and Federal agencies 
prior to the fielding of the TALOS prototype.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. RUNYAN
    Mr. Runyan. As you know, I am very proud to represent Joint Base 
McGuire-Dix-Lakehurst, which has done an outstanding job fulfilling its 
refueling and air mobility mission. With KC-10s doing a large part of 
the air refueling mission at JB MDL in support of overseas operations, 
the Northeast Tanker Corridor, and homeland defense, I am concerned 
about proposals to entirely retire this fleet of aircraft when they are 
vital to the mission. Since the KC-10 is a tanker/cargo aircraft, how 
much tanker capacity will you lose and how much cargo capacity will you 
lose?
    General Fraser. The President's Budget for Fiscal Year 2015 keeps 
the 59 KC-10s throughout the Future Years Defense Program while 
preserving acceptable levels of risk.
    Mr. Runyan. How does the proposed possible loss of KC-10 capacity 
degrade the capability to fulfill worldwide air refueling requirements? 
Cargo requirements? How will you make up these shortfalls? Do the other 
Combatant Commanders agree with losing this capability?
    General Fraser. The President's Budget for Fiscal Year 2015 keeps 
the 59 KC-10s throughout the Future Years Defense Program while 
preserving acceptable levels of risk.
    Mr. Runyan. Why would you not replace the KC-10s with the KC-46A on 
a one for one basis so the tanker and cargo mission capability will be 
retained without any ``bathtub'' or mission risk?
    General Fraser. The President's Budget for Fiscal Year 2015 keeps 
the 59 KC-10s throughout the Future Years Defense Program while 
preserving acceptable levels of risk.
    Mr. Runyan. If the KC-10s were all put in the Reserve Component 
would the savings be substantial enough to keep them in the air 
mobility fleet? Why or why not?
    General Fraser. The President's Budget retains the entire KC-10 
fleet through the Future Years Defense Program. Moving that fleet to 
the Air Force Reserve would require further analysis by the Air Force 
of the KC-10's effectiveness for operating in a strategic reserve 
capacity.
    Mr. Runyan. Last year, the Armed Services Committees made clear our 
concern about the future viability of the Civil Reserve Air Fleet and 
requested that the Department of Defense study some of the policies and 
legislation that will affect the CRAF going forward. Additionally, we 
understand that USTRANSCOM has participated in a working group along 
with the commercial carriers in an effort to harmonize your 
relationship and ensure that the parties are working in the best 
national security interests of the United States. General, can you 
update the committee on the details of any progress made by the 
Department, whether through the study or through the working groups, on 
ensuring a viable future for the CRAF, especially following the 
projected withdrawal from Afghanistan, and regulating compliance with 
the longstanding National Airlift Policy?
    General Fraser. The President's Budget retains the entire KC-10 
fleet through the Future Years Defense Program. Moving that fleet to 
the Air Force Reserve would require further analysis by the Air Force 
of the KC-10's effectiveness for operating in a strategic reserve 
capacity.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. PETERS
    Mr. Peters. I understand there is an outstanding Urgent Operational 
Need for a sea-based Intelligence, Surveillance, Reconnaissance (ISR) 
Unmanned Air System (UAS) to support Special Operations Forces 
conducting counterterrorism operations in the AFRICOM region. And I 
understand the Navy is working to meet this requirements through an 
Endurance Upgrade Rapid Deployment Capability (RDC) acquisition to the 
MQ-8 Fire Scout.
    Can you tell the committee if your forces still require this 
capability, how the Navy is providing the capabilities you requested, 
and if any additional support is needed to meet this requirement?
    Admiral McRaven. Yes, we still have a valid requirement for Sea 
Based ISR per the January 24, 2012 Joint Requirements Oversight Council 
(JROC) approved Joint Urgent Operational Need (JUON) Request for Sea-
Based ISR UAS System Support Joint Requirements Oversight Council 
Memorandum (JROCM) 007-12, January 30, 2012. The Navy approved the MQ-8 
Fire Scout Endurance Upgrade Rapid Deployment Capability (RDC) on 
February 1, 2012.
    The Navy has provided MQ-8 capability in support of SOF since 
frigates (FFGs) first began to support the requirement in Fall 2012. 
Fire Scout ISR support is a critical enabler in regions where land 
basing is limited due to political/military restrictions and tyranny of 
distance. Post-Afghanistan, there will be an increasing need for 
expeditionary, sea-based ISR to support SOF.
    Due to fiscal constraints, Navy MQ-8 ISR support is limited, and 
the last scheduled deployment of an FFG with MQ-8 capability in support 
of SOF ends during Fiscal Year 2015. Additionally, Littoral Combat 
Ships (LCSs) are not slated to field in numbers to regain and sustain 
current Fire Scout capability for several years. However, the Navy has 
done initial Non-recurring engineering work to install Fire Scout on 
Guided Missile Destroyers (DDGs), which could provide necessary sea-
based ISR support to SOF in the near-term as an interim solution until 
LCS is available in sufficient numbers.
    Mr. Peters. I understand that DOD's Surface Deployment and 
Distribution Command (SDDC), under the purview of the U.S. 
Transportation Command (USTRANSCOM), has jurisdiction over the 
Strategic Port Program, but that the Department of Transportation's 
Maritime Administration (MARAD) administers the program. Given this 
shared participation, how are the responsibilities for the program 
delineated between DOD and DOT? Are they clearly defined and 
understood, particularly with respect to funding responsibilities for 
the Strategic Port Program? How does TRANSCOM coordinate with MARAD to 
ensure that the program's resource needs are identified and met?
    General Fraser. These responsibilities are delineated in the 
National Port Readiness (NPRN) Memorandum of Understanding (MOU)-
Revision 6, signed lastly on 29 Aug 2006. Specifically, MARAD is 
responsible for providing vessels, coordinating use of commercial 
shipping services and equipment (containers, chassis, etc), managing 
and maintaining the National Defense Reserve Fleet/Ready Reserve Force, 
and working with industry stakeholders and organizations 
(Transportation Research Board, American Association of Port 
Authorities and the National Defense Transportation Association).
    USTRANSCOM's responsibilities include: providing air, land and sea 
transportation; directing and coordinating the activities of its 
components (i.e., SDDC, Military Sealift Command, and Air Mobility 
Command); exercising command of all transportation assets; serving as 
DOD single manager for transportation; providing guidance and insight 
into DOD transportation policies and plans; and being defense 
transportation sector lead for DOD Critical Infrastructure Program.
    Typically MARAD and USTRANSCOM provide funding only to cover the 
administer portion of the Strategic Seaport Program, service contracts 
needed to gather information, and analyze the seaports.
    If Strategic Seaport facilities become unsuitable for national 
security requirements, DOD and MARAD will first work with the Strategic 
Seaport to identify suitable replacement capability at that port. If no 
suitable options exist, DOD and MARAD coordinate with other Strategic 
Seaports or identify an alternate seaport that has the ability to 
replace the lost capability/capacity.
    Commercial Strategic Seaports are either privately or municipally 
owned and have various options for funding infrastructure improvements 
such as: port revenues, general obligation bonds (G.O. bonds), revenue 
bonds, loans, grants, and other sources. The DOD, consistent with the 
premise of relying on viable/available commercial capability, 
successfully leverages port self-investment as the best value means by 
which to sustain required seaport capabilities.
    USTRANSCOM, through the Strategic Seaport and Ports for National 
Defense Programs, coordinates with MARAD to ensure DOD's needs for 
strategic mobility are included in civil sector planning, which guides 
the funding and maintenance of civil sector infrastructure. The 
Strategic Seaport and Ports for National Defense Programs coordinate 
through the National Port Readiness Network to ensure MARAD and the 
Port Authorities are aware of DOD's needs and those needs are 
incorporated into Port Planning Orders. DOD's policy is to rely on 
civil sector infrastructure, identify and communicate our requirements, 
and negotiate for the use of that excess infrastructure capacity.
    Mr. Peters. Does TRANSCOM still utilize the Commercial First 
strategy (which prioritizes commercial services above the Strategic 
Port network)? Has TRANSCOM discussed with U.S. Department of 
Transportation Maritime Administration (MARAD) any standardization of 
(Strategic Port) Port Planning Order's (PPO)? Does TRANSCOM have the 
ability to prioritize and/or make recommendations to the improvement of 
connectivity of the Strategic Port system, if it is found that the 
physical infrastructure in and around Strategic Seaports is not 
sufficient?
    General Fraser. USTRANSCOM follows the DOD directives to utilize 
best value, US flag, commercial resources to the maximum extent 
practicable. Sealift cargo appropriate for commercial carriage to be 
carried by commercial ships assumes the following priority: first, to 
commercial vessels already under charter to the United States; then to 
commercial vessels in accordance with the Cargo Preference Act of 1904 
(10 USC 2631) and the Voluntary Intermodal Sealift Agreement, 7 Nov 07.
    USTRANSCOM has discussed standardization of PPOs with MARAD. 
Generally speaking, the PPOs have historically been standardized by 
including content of specific berths or linear footage of berths and 
``Open air'' and ``facility enclosed'' staging.
    USTRANSCOM does not have the ability to prioritize improvement of 
connectivity if it is found that the physical infrastructure in and 
around Strategic Seaports is not sufficient. Such priorities are 
determined by other Federal, State and local government authorities or, 
in the case of rail, by the commercial-railroad owner. In the 
Congressional Report titled Update to Port Look 2008, Strategic 
Seaports Study, 3 Jan 2012, DOD found that the infrastructure in and 
around Strategic Seaports is currently sufficient to meet DOD's needs.
    However, USTRANSCOM does have the ability to recommend improvement 
of connectivity by sharing concerns and issues it discovers with MARAD, 
the Federal, State and municipal Departments of Transportation, the 
Federal Railroad Administration and the Port Authorities.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. Combat operations in Afghanistan are on track to 
be concluded by the end of 2014. Whether a residual force remains 
largely depends on whether the Afghan government signs the Bilateral 
Security Agreement (BSA). Regardless, US Transportation Command is 
tasked with moving our troops and materiel out of Afghanistan. 
Considering this herculean effort will require assistance from our 
allies, I wanted to ask you a question along those lines:
    <bullet>  Azerbaijan has been one of the most reliable partners for 
the United States as a transit route to and from Afghanistan since 
2001. How do you now assess the role of Azerbaijan as part of your 
contingency plans for the retrograde from Afghanistan? How closely are 
you working with the government of Azerbaijan and its security forces 
in those efforts?
    <bullet>  The Northern Distribution Network has been a critically 
important transit route for the operations in Afghanistan. The United 
Stated has successfully developed cooperative relations with many of 
the countries along this route. Can you update us on your engagements 
with and the capacity of these regional partners to support US 
retrograde operations from Afghanistan?
    General Fraser. U.S. Transportation Command (USTRANSCOM) engagement 
with Azerbaijan has resulted in a strong partnership that capitalizes 
on mutually beneficial logistical efforts. Azerbaijan currently 
provides surface and over-flight access in support of sustainment and 
retrograde operations to and from Afghanistan. Over the past two years, 
Azerbaijan has increased their commercial capabilities at the Heydar 
Aliyev Airport by building state-of-the-art wash racks and cold storage 
facilities; both of which are contracted for use by our commercial 
carriers to respectively move retrograde cargo out of Afghanistan and 
food supplies into Afghanistan. Furthermore, our political engagement 
strategy resulted in Azerbaijan approving the U.S. blanket over-flight 
of its airspace and decreasing its diplomatic clearance lead times for 
U.S. aircraft landing in support of multimodal operations. As the U.S. 
drawdown in Afghanistan continues, Azerbaijan will be a significant 
partner in providing flexibility across our strategic lines of 
communication systems enabling successful sustainment and retrograde 
operations.
    USTRANSCOM continues to engage successfully with our regional 
partners across the Northern Distribution Network (NDN). Despite 
decreasing cargo volume due to lower force levels in Afghanistan and 
the strategic requirement to maintain flow across other routing 
options, the NDN continues to provide a scalable transportation network 
that maximizes flexibility and reduces risk. The relatively 
unrestricted freedom of movement across the NDN significantly bolsters 
our distribution network.

                                  <all>

</pre></body></html>
